<html>
<title> - HEARING ON THE NOMINATIONS OF KATHLEEN HARTNETT WHITE TO BE MEMBER OF THE COUNCIL ON ENVIRONMENTAL QUALITY AND ANDREW WHEELER TO BE DEPUTY ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 115-120]
[From the U.S. Government Publishing Office]


                                                         
                                                        S. Hrg. 115-120

 HEARING ON THE NOMINATIONS OF KATHLEEN HARTNETT WHITE TO BE MEMBER OF 
 THE COUNCIL ON ENVIRONMENTAL QUALITY AND ANDREW WHEELER TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            NOVEMBER 8, 2017

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov





 HEARING ON THE NOMINATIONS OF KATHLEEN HARTNETT WHITE TO BE MEMBER OF 
 THE COUNCIL ON ENVIRONMENTAL QUALITY AND ANDREW WHEELER TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY
          
          
          
          




                                 
                                                        S. Hrg. 115-120
 
 HEARING ON THE NOMINATIONS OF KATHLEEN HARTNETT WHITE TO BE MEMBER OF 
 THE COUNCIL ON ENVIRONMENTAL QUALITY AND ANDREW WHEELER TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-600 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001      
  
  
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            NOVEMBER 8, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Cornyn, Hon. John, U.S. Senator from the State of Texas, prepared 
  statement......................................................     6

                               WITNESSES

Stivers, Hon. Steve, U.S. Representative from the State of Ohio..     8
White, Kathleen Hartnett, Director, Texas Public Policy 
  Foundation.....................................................     9
    Prepared statement...........................................    12
    Responses to additional questions from Senator Carper........    17
    Response to an additional question from Senator Booker.......    35
    Responses to additional questions from Senator Gillibrand....    35
    Response to an additional question from Senator Inhofe.......    36
    Responses to additional questions from:
        Senator Merkley..........................................    37
        Senator Sanders..........................................    41
        Senator Whitehouse.......................................    57
Wheeler, Andrew, Principal, Faegre Baker Daniels Consulting......    62
    Prepared statement...........................................    64
    Responses to additional questions from Senator Carper........    67
    Response to an additional question from:
        Senator Gillibrand.......................................    82
        Senator Inhofe...........................................    82
    Responses to additional questions from:
        Senator Merkley..........................................    82
        Senator Sanders..........................................    84
        Senator Sullivan.........................................    93
        Senator Whitehouse.......................................    94

                          ADDITIONAL MATERIAL

Kathleen Hartnett White, Distinguished Senior Fellow-in-Residence 
  & Director, Armstrong Center for Energy & the Environment, 
  www.texaspolicy.com, sourced November 7, 2017..................   600
Board of Directors, www.texaspolicy.com, sourced November 7, 2017   602
Information on the Texas Public Policy Foundation from 
  www.sourcewatch.org, sourced November 7, 2017..................   605
Green Energy Policies May Haunt Democrats This Fall, The Patriot 
  Post, July 2, 2016.............................................   626
Trump pick for top environmental post once wrote Texas would be 
  `better off' as an independent republic, www.cnn.com, October 
  26, 2017.......................................................   628
Clean Air Act....................................................   632



 HEARING ON THE NOMINATIONS OF KATHLEEN HARTNETT WHITE TO BE MEMBER OF 
 THE COUNCIL ON ENVIRONMENTAL QUALITY AND ANDREW WHEELER TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                      WEDNESDAY, NOVEMBER 8, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Rounds, Ernst, Sullivan, Cardin, 
Whitehouse, Merkley, Gillibrand, Booker, Markey, Duckworth, and 
Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider the nominations of Kathleen Hartnett 
White to be a member of the Council of Environmental Quality--
the CEQ, and Andrew Wheeler to be Deputy Administrator of the 
Environmental Protection Agency.
    Before I speak about the nominees, I want to reiterate 
remarks that I made last week on the Senate floor that are 
applicable to today's hearing. All year long, Democrats have 
been putting up roadblocks to President Trump's nominations. 
Democrats have been forcing 30 hours of debate on even some of 
the most bipartisan of President Trump's nominees. But then 
those Democrats have not been showing up to use the time for 
the debate, the 30 hours.
    In the past, both sides would agree to waive the time 
requirements and to move on to other Senate business. But today 
many Democrats insist on cloture votes and then insist that we 
waste hour after hour on the Senate floor, even when there is 
no one on the floor to debate the nominees that are in front of 
us.
    It is time to end this pointless spectacle. We have nearly 
100 nominees for important jobs in the Administration on the 
Executive Calendar waiting a vote on the Senate floor. The 
Environment and Public Works Committee has reported 11 nominees 
to the full Senate for approval, only two of whom have received 
votes on the Senate floor so far.
    I am pleased that we will be able to vote on another this 
week, but unfortunately, it required cloture and another 30 
hours of debate time.
    As of last Friday, there have been 51 cloture votes on 
President Trump's nominees. In comparison, the previous four 
Administrations had only a total of seven cloture votes on 
their nominees at this point in their administrations. That 
would be Bill Clinton, Barack Obama, and both Presidents Bush.
    Democrats are not using the Senate rules for debate or 
deliberation, only for delay. It is therefore time to change 
the rules and go back to the process that Senator Schumer 
supported in 2013 and 2014. Today, the schedule allows us to do 
only one or two nominations in a typical week. If we go back to 
the 2014 Schumer standard, we could clear multiple nominations 
in a day.
    Now I would like to turn to today's nominees.
    President Trump has nominated Kathleen Hartnett White to be 
a member of the CEQ. The President intends to designate her as 
the Chair of the CEQ upon her confirmation by the Senate. CEQ 
was established pursuant to the National Environmental Policy 
Act, the implementation of which the CEQ oversees. CEQ is 
responsible for coordinating Federal environmental efforts. It 
develops and recommends national policies to the President that 
promote the improvement of environmental quality.
    James Connaughton, who is the former Chair of the CEQ under 
President George W. Bush, said this of Ms. Hartnett White. He 
said, ``She is clearly highly qualified, adept, and has a 
breadth of experience.''
    Ms. White currently serves as a distinguished senior fellow 
in residence and director of the Armstrong Center for Energy 
and Environment at the Texas Public Policy Foundation, which 
she joined in 2008. From 2001 to 2007 she served as Chairman 
and Commissioner of the Texas Commission on Environmental 
Quality.
    Ms. White has also served as a leader of the Lower Colorado 
River Authority, the Texas Water Development Board, the Texas 
Economic Development Commission, the Environmental Flow Study 
Commission, the Texas Emissions Reduction Advisory Board, the 
Texas Water Foundation, the National Cattlemen's Association, 
and the Texas Wildlife Association.
    I look forward to hearing from Ms. White how she will bring 
her breadth of experience to bear on CEQ.
    President Trump also nominated Andrew Wheeler to be Deputy 
Administrator of the EPA. The Deputy Administrator plays a 
central role in developing and implementing programs and 
activities focused on fulfilling the EPA's mission of 
protecting human health and the environment. The Deputy 
Administrator oversees Agency-wide initiatives and coordinates 
important issues with EPA's regional and program offices.
    I was heartened by the Ranking Member's positive comments 
about Mr. Wheeler and his dedication to the EPA's mission. Our 
Ranking Member has previously stated, ``The fact that we have 
worked with him, we know him, he used to work with George 
Voinovich, who is one of my closest friends and allies on the 
environment, is certainly helpful.'' He went on to say, ``And I 
think, having worked in the Agency, he actually cares about the 
environment, the air we breathe, the water we drink, and the 
planet on which we live.''
    Mr. Wheeler has spent over 25 years working in the 
environmental field, first as a career employee with the title 
of Environmental Protection Specialist at EPA for 4 years, then 
as the EPW's Clean Air Subcommittee Staff Director for 6 years; 
next as the EPW's Republican Staff Director and Chief Counsel 
for 6 years; and finally, as a consultant and lobbyist for a 
large variety of energy and environmental clients for the last 
8 years.
    We know how well qualified Mr. Wheeler is, and if 
confirmed, what a wealth of experience and expertise he will 
bring to a critically important role in protecting America's 
public health and safety.
    As I turn to Senator Carper, I would also add, like your 
two sons, Andrew is also an Eagle Scout.
    I would like to also now turn to the Ranking Member for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you. Thank you, Mr. Chairman. We are 
grateful for this hearing and for our nominees that will be 
appearing before us today.
    John Barrasso and I are friends. I consider everybody on 
this Committee a friend. And I wasn't going to mention this, 
but I have to say this. We have an Administration, Mr. 
Chairman, that has basically said to heads of various agencies 
they don't have to respond to oversight inquiries from anybody 
except the Chairman of a committee. And you know and I know 
that usually the party that is not in the White House tends to 
be more rigorous in exercising oversight over the 
Administration. That is the way it has always worked, whether 
you have a Democrat or Republican President.
    We have asked, on our side of the aisle, some 30 letters to 
EPA asking for response. We think we are exercising our 
oversight responsibilities. We have heard now on about 10 of 
them. And if you are playing baseball, you are batting .333. In 
baseball, that is pretty good, but it is not pretty good here 
in the U.S. Senate.
    We can do better here. And as my colleagues know, when we 
had a Democratic administration, and my colleagues said they 
weren't getting the responses they needed, I would literally 
call the heads of the agencies and say, for God's sake, respond 
to Senator whoever it is. For God's sake, respond. And that is 
kind of like regular order, and we need to get back to that. We 
get good responses on our letters, and we can move people. We 
move people a lot faster, and I want to. I want to do that.
    I come from a background that, as Governor, folks I 
nominate, I expect them to be confirmed. Get a hearing; be 
confirmed. Eight years as Governor of Delaware, and we had a 
Republican House, Democratic Senate, not one was ever turned 
down to lead an administration, to lead a department, to lead 
an agency, to serve as a judge. Not one was turned down. And I 
think part of it was the way we treated and responded to 
legislators for their lawful responsibilities, obligation to do 
oversight. And we are not getting that right now.
    I had not planned to say that, but I felt compelled to do 
that, especially the part that I regard you as my friend.
    Before I turn to the nominations, I want to say I look 
forward to the day when Scott Pruitt, the head of the EPA, 
comes and testifies before us again. And my hope is that that 
day will come soon.
    Turning to today's hearing, we have two nominees before us 
who have been nominated to serve in very important capacities, 
very important capacities. The Council on Environmental Quality 
is led by the White House's top environmental official. CEQ has 
historically played a vital role in coordinating the efforts of 
all Federal agencies on cost cutting and important 
environmental issues. For example, CEQ co-chaired President 
Obama's Climate Adaptation Task Force to help communities 
strengthen their resilience to extreme weather and prepare for 
other impacts of climate change.
    CEQ leads the Office of Federal Sustainability, which 
develops policies to modernize Federal property and save money 
through increased energy efficiency and other purchasing 
requirements. CEQ also plays a key role in identifying ways to 
make sure Federal agencies work together well and in a 
coordinated fashion. And CEQ helped to get the almost 
unanimously enacted Toxic Substance Control Act, which a bunch 
of us worked on, over the finish line by coordinating with a 
wide range of stakeholders during negotiations between the 
House and the Senate and those stakeholders and the 
Administration.
    The nominee to carry on this important work must be someone 
who can build alliances, someone who can work with Congress and 
be a credible leader. Unfortunately, in my view, the nominee 
before us today, Kathleen Hartnett White, does not, in my 
opinion, meet this standard.
    In her years serving the Texas Commission on Environmental 
Quality and thereafter, Ms. White has shown a disdain for 
science, a disregard for laws and regulations already on the 
books, and a staggering disrespect for people who have views 
with which she disagrees.
    Ms. White, who has been asked to hold the top environmental 
position in the White House, has shown that she is not only a 
science denier, but actively promotes misinformation on 
climate, on ozone, on mercury, particulate matter, and other 
known health hazards that impact our air and our waterways. 
From describing the Renewable Fuel Standard as unethical, to 
comparing people who believe in climate programs to pagans, to 
saying that environmentalism will lead to mass starvation or 
other large scale calamities, her tone, her words, and her 
actions are simply unacceptable.
    Our second nominee, Andrew Wheeler, once occupied a seat on 
this side of the dais, as the Chairman has said. He is no 
stranger to the Environmental and Public Works Committee. As a 
long time staff member for the senior Senator from Oklahoma, 
Mr. Wheeler was someone with whom we didn't always agree on 
each and every policy, but he did prove to be one with whom we 
were always able to work together on policies that we did agree 
on.
    Given the polarizing nature of Scott Pruitt's EPA, as well 
as the polarizing nature of one of Mr. Wheeler's long-time 
clients, Bob Murray, of Murray Energy, I am anxious to hear 
from Mr. Wheeler about whether he can assure members of this 
Committee that his confirmation to be Deputy Administrator of 
the EPA would not be more of the same approach at the Agency.
    I would like to know if Mr. Wheeler can leave his clients 
and his conflicts of interest behind him and start over with 
the interests of the country as his No. 1 priority. I also want 
to understand whether, unlike Ms. White, Andy Wheeler can 
embrace and acknowledge accepted environmental and public 
health science.
    So thanks, Mr. Chairman. We look forward to hearing from 
all of our witnesses, and especially welcome as a Buckeye our 
lead off witness. Thank you for joining us today.
    Senator Barrasso. Well, thank you very much, Senator 
Carper.
    I would point out that, according to the EPA, to date, the 
Agency has delivered over 4,300 pages of documents to the 
minority, including civil and criminal enforcement summaries, 
travel records, communications relating to the Clean Power Plan 
Executive Order, communications relating to the oil and gas 
industry, information collection requests, and then ethics 
documents as well, including recusal forms, training records, 
and ethics pledges.
    I do agree that the Administration needs to be responsive 
to members from both sides of the aisle. I would point out that 
as an early member of this Committee a number of years ago, 
under Chairman Boxer, I was the Ranking Member of something 
called the Oversight Committee, and I had a number of things 
that I wanted to look into in terms of oversight, and the 
Chairman at that time told me the only oversight that was going 
to be done under her Committee at that time was over what she 
described as abuses of the Bush administration; nothing of that 
was happening during that current Obama administration.
    Senator Carper. Well, for good or for bad, I am not Barbara 
Boxer.
    [Laughter.]
    Senator Carper. I am Tom Carper, and I want to work 
together, and I want to get things done, and I want to get 
reasonable responses to the two-thirds of requests we have 
made. I just want reasonable responses, and I don't think that 
is too much to ask for. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Cornyn of Texas was scheduled to be here to 
introduce Ms. Hartnett White. He had a conflict that he just 
could not avoid, so I am going to submit his statement to the 
record of support for Kathleen Hartnett White into the record 
without objection.
    Hearing none, it is submitted.
    Senator Carper. I object.
    Senator Barrasso. Too late.
    [Laughter.]
    [The prepared statement of Senator Cornyn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Senator Barrasso. Now, I would like to welcome to the 
Committee Congressman Steve Stivers from the Ohio 15th 
District. And he would be doing us the privilege of introducing 
Mr. Wheeler.
    Congressman Stivers, please proceed.

               STATEMENT OF HON. STEVE STIVERS, 
           U.S. REPRESENTATIVE FROM THE STATE OF OHIO

    Mr. Stivers. Thank you, Chairman Barrasso, Ranking Member 
Carper, and Senators for the honor to be with you today. It is 
certainly my honor to introduce my good friend, Andrew Wheeler, 
who is nominated to be Deputy Administrator of the 
Environmental Protection Agency.
    Andrew comes with an unmatched amount of experience in 
energy and environment policy both in government and in the 
private sector, which will make him an excellent candidate for 
this role. Andrew and I met back in 1983 at Woodland Trails Boy 
Scout Camp, where I was Commissioner and he was the Director of 
Nature Conservation. He and I both went on to become Eagle 
Scouts, so I have great information, as you go through your due 
diligence for your confirmation process. He is indeed a Boy 
Scout.
    Even back then Andrew had clear passion for the environment 
and understood the importance of stewardship. Andrew began his 
career with the EPA, serving in the Office of Pollution 
Prevention. He then went on to the U.S. Senate, starting with 
Senator James Inhofe, then moving to the Subcommittee for Clean 
Air, Wetlands, and Nuclear Safety, and later the Committee on 
Environment and Public Works.
    In more than 10 years with these committees, he worked on 
nearly every piece of major energy and environmental related 
legislation that came through Congress. For example, in his 
time as Staff Director on this Committee, Andrew was 
responsible for managing Senate floor debate and strategy for 
legislation on topics including regulations, offshore oil 
reserves, alternative fuel vehicles, biofuels, and tar sands. 
In his role, he also gained experience developing long term 
goals and strategies, and managing a staff and budget.
    Currently, Andrew is a principal at Faegre Baker Daniels 
Consulting and co-lead of Faegre Baker Daniels' energy and 
natural resources practice. In that role, he advises clients on 
a variety of complicated legislative, regulatory, and 
operational issues.
    With his years of experience in the Senate and working with 
multiple Federal agencies, it is clear that Andrew is more than 
qualified for this position. Moreover, Andrew had a top tier 
education, earning a B.A. in English and Biology from Case 
Western Reserve University and a Juris Doctorate from 
Washington University School of Law, and an MBA from George 
Mason University School of Business.
    Andrew understands the balance we need to have between 
environmental stewardship and responsible use of our natural 
resources. I have the utmost confidence in Andrew, and I hope 
you will move forward with his confirmation as Deputy 
Administrator of the United States Environmental Protection 
Agency.
    I want to thank you for your consideration, and it is 
certainly my honor to introduce my friend, Andrew Wheeler.
    Senator Barrasso. Thank you very much, Representative 
Stivers. I appreciate your being here. You are welcome to stay 
or leave, whichever works best for your schedule, but you can't 
continue to sit there.
    Mr. Stivers. Thank you. I will move away.
    [Laughter.]
    Senator Barrasso. Thank you.
    Senator Inhofe, I heard your name raised in that glowing 
recommendation.
    Senator Inhofe. Thank you very much, Mr. Chairman. You can 
hear from the non-Eagle Scout group now.
    I have to say there is no one in this room right now, or no 
one at this table, who knows Andrew Wheeler better and loves 
him more than I do, and I would just say that all the things 
that we did together, I think the Chairman did a good job 
talking about his background. When you stop and think about all 
the highway bills, all these bills, we did these together. We 
accomplished a lot, and a lot of that was due to Andrew 
Wheeler. They desperately need him over there. They are 
understaffed. And I just want those in this room to know that 
if you knew him as well as I would, we would have this over 
with already. Thank you.
    Senator Barrasso. Thank you, Senator Inhofe.
    Now I would like to welcome our nominees to the Committee 
and ask that they please come forward.
    Kathleen Hartnett White, who is the nominee to be a member 
of the Council on Environmental Quality, and Andrew Wheeler, 
who is the nominee to be the Deputy Administrator of the 
Environmental Protection Agency.
    I want to remind each of you that your full written 
testimony will be made a part of the record. I look forward to 
hearing the testimony from both of you.
    We will hear first from Ms. Hartnett White.
    Would you like to introduce any members of the family, 
folks who may be with you today? And after you do, we would ask 
that you please proceed with your testimony at your 
convenience.

             STATEMENT OF KATHLEEN HARTNETT WHITE, 
            DIRECTOR, TEXAS PUBLIC POLICY FOUNDATION

    Ms. White. Thank you very much, Chairman Barrasso. I would 
like to welcome and introduce some family members here who are 
with me.
    Senator Barrasso. Please.
    Ms. White. My niece, Melanie. I can't find you. My niece, 
Melanie, and her son, Mason O'Brien. His father, Jim O'Brien, 
is my closest relative who could not attend today, but I would 
like to list them. I am proud to say his wife, Melanie, just 
retired from the U.S. Navy. I am very, very proud of her.
    My husband, also, got incredibly sick from some mean, mean 
flu, so I am a little sparse on family. But I would like to 
raise him up. My husband is a fifth generation cattle rancher 
in Presidio County in Texas, extremely remote, and he also 
managed to be chairman of the El Paso branch of the Dallas 
Federal Reserve and President of the American Hereford 
Association. I am very proud of him. I am very thankful for him 
and his patience.
    Senator Barrasso. Please proceed. Welcome.
    Ms. White. I will now proceed with my personal statement.
    Senator Barrasso. Please do. Welcome to the Committee, and 
please proceed.
    Ms. White. Chairman Barrasso, Ranking Member Carper, all 
the members of the Committee, I am honored to appear before you 
today as President Trump's nominee for member, and if 
confirmed, Chairman of the White House Council on Environmental 
Quality. And I am most grateful to the President for the 
confidence he has placed in me.
    As I just mentioned, my husband, Beau, is a fifth 
generation cattle rancher. His family ranch in Presidio County 
is really a living example of the mission of the NEPA, of the 
National Environmental Policy Act, that promotes an enduring 
and productive harmony between humans and the natural world.
    I grew up in rural Kansas, and there my late parents 
instilled in me a lifelong curiosity and reverence for the 
natural world. They also told me to wisely use the natural 
resources with which our country is so blessed.
    A strong economy, I believe, is what makes environmental 
gains possible. As Chairman of the TCEQ, my record of achieving 
major improvements in air quality and water quality 
demonstrates that economic growth can go hand in hand with 
remarkable environmental enhancement. And I am proud to say 
Texas has been a leader in that. The Texas environment is 
dramatically cleaner now than it was 30 or 40 years ago, while 
the State's economy has continued to grow.
    While I was Chairman at TCEQ, Texas experienced nation 
leading growth in population, in gross State product, and in 
jobs, while dramatically reducing point source emissions, and 
my written testimony gives the percentages on all of those.
    It was a big job to chair TCEQ in a big State. In 
particular, I had regulatory oversight over more than 350,000 
public and private entities, implementing and enforcing binding 
regulations on air quality, water quality, water supply, and 
waste disposal. And I might add, I have to submit for the 
record--or in whatever format you need--documents for all the 
enforcement actions I took while I was at TCEQ.
    Senator Barrasso. They will be included. Thank you.
    Ms. White. Thank you.
    Execution of environmental laws is essential, and we took a 
very strong perspective on that.
    With the help of a dedicated staff of over 3,000, and 
working with officials across the State and Federal agencies, 
TCEQ had many successes. As an example, for years Houston has 
vied with Los Angeles as the worst ozone polluter in the 
country. But under the implementation plan I developed while I 
was Chair, Houston actually attained the then ozone standard in 
2010 and 2011, far earlier than many thought possible.
    The achievements in Texas in recent years I think were 
possible because we insisted upon robust science, coordination 
across the agencies, efficient permitting, and timely, 
predictable outcomes. These principles are also now the keys to 
the President's agenda for regulatory reform and urgently 
needed new infrastructure.
    I strongly believe that the Federal Government can and 
should provide a predictable, transparent, and timely process 
for making decisions, including for major infrastructure 
projects. We owe this to the American people. And I commend 
this Committee for recognizing these issues in two, now, law. I 
believe one is called the FAST Act and MAP-21, and I think that 
is wonderful.
    This Committee has a proud history of working together to 
solve complex national problems with practical solutions that 
benefit all Americans. If confirmed, I pledge to work with this 
Committee and the President to continue that tradition and 
achieve a balanced and effective national approach to our 
environmental challenges.
    Thank you very much, and I look forward to answering your 
questions today.
    [The prepared statement of Ms. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Well, thank you very much, Ms. Hartnett 
White. We appreciate your testimony and your presence here 
today.
    Mr. Wheeler, it is now your turn. If you would like to 
introduce anyone and then proceed with your testimony.

                 STATEMENT OF ANDREW WHEELER, 
           PRINCIPAL, FAEGRE BAKER DANIELS CONSULTING

    Mr. Wheeler. Thank you, Senator. I would like to introduce 
my sister, Liesel, right behind me; her husband, Tim Cooper; 
and my nephew and godson, Luke Cooper. And I really appreciate 
Luke being here today because, being here, he has broken his 
perfect attendance record at school.
    [Laughter.]
    Mr. Wheeler. So I am very happy and proud.
    Senator Barrasso. Does he need a note from a doctor? We can 
help him.
    [Laughter.]
    Mr. Wheeler. Thank you.
    And I do have three friends: my friend Don, whom I met my 
first day of law school in 1987, flew here from Seattle to be 
here just for this hearing; and my friends John and Michael, 
who climbed Kilimanjaro with me 2 years ago. And I figured if 
they could get me to the top of the mountain, they could get me 
through today.
    [Laughter.]
    Mr. Wheeler. Good morning, Chairman Barrasso, Ranking 
Member Carper, and Chairman Emeritus Inhofe, and members of the 
Committee. I am truly honored and humbled by this opportunity 
to appear today as the nominee for the position of Deputy 
Administrator at the U.S. Environmental Protection Agency. I 
want to thank President Trump for this distinguished 
opportunity, and I want to thank Administrator Pruitt for the 
trust he has shown in me in supporting my nomination.
    As many of you know, I spent 14 wonderful years working on 
this Committee for Chairman Inhofe and Senator Voinovich in a 
number of different roles, including the Majority and Minority 
Staff Director and Chief Counsel. I must say the view from this 
table is far different from the view from the staff bench 
behind the dais.
    As a side note, I have never sat here before. I think this 
table is really kind of high. If I had sat here when I was 
staff director, we would have lowered it.
    Starting with the Safe Drinking Water Act amendments in 
1996 through three highway bills, several WRDA bills, 
brownfields, diesel reduction legislation, and numerous other 
bills that I had the privilege to work on, I always tried to 
find common ground and work across the aisle.
    I would like to take a moment and speak directly to the 
career employees of the EPA who may be watching this hearing. I 
started my career at EPA in the Toxics Office in 1991 as a 
career employee. I have always believed that the career 
employees at the EPA are some of the most dedicated and hard 
working employees in the Federal Government, and if confirmed, 
I would be honored to join you again. The mission of the EPA, 
to protect human health and the environment, is critical to our 
country and its citizens, and something that I take very 
seriously, and I know that you do, too.
    President Trump and Administrator Pruitt have set an 
ambitious agenda that I intend to help implement, if confirmed 
to this position. Administrator Pruitt has talked about 
returning EPA to its core mission and purpose, a goal that I 
wholeheartedly support.
    During his confirmation hearing, Administrator Pruitt 
emphasized three key objectives: first, we are a nation of 
laws, and it is EPA's role to administer those laws faithfully. 
I understand the separation of powers through my time spent 
working here in the Senate, I know where the laws are drafted, 
many of them here in this very room, and I will work with the 
Administrator to ensure that the Agency is following the laws.
    Second, Administrator Pruitt committed that the Agency 
would acknowledge, respect, and promote the critical role of 
the States in implementing the Federal environmental laws. 
Cooperative federalism is a cornerstone of the Administrator's 
approach. We must work cooperatively with the States to ensure 
that the environment and public health are both protected.
    Third, Administrator Pruitt emphasized the important role 
that the public plays in the regulatory process. He said it is 
critical that the EPA truly listen to the diverse views of the 
American people, and that includes all of the people. It is 
vitally important that the American public understands the 
mutual goals of environmental protection and economic growth.
    The environment today is cleaner than it has ever been in 
modern times. As a nation, we have made tremendous progress 
since the 1970s, and we have to build upon that progress going 
forward.
    I would like to go off script for just a minute and 
recognize my mother, who was too ill to travel here today. When 
I was 21 months old, my sisters were 8 years and 8 months old, 
our father passed away. Our mother went back to school to 
finish her teaching degree, taught elementary school for almost 
30 years, and raised us on her own. She put all three of us 
through college and helped us with various graduate schools. 
She has been my No. 1 mentor, next to Senator Inhofe, and 
confidante, and I know I would not be here today if it wasn't 
for her constant love and support.
    Mr. Chairman and members of the Committee, thank you again 
for the opportunity to appear before you today, and I want to 
thank your staff for their service. I look forward to starting 
our dialogue now by answering any questions you may have.
    [The prepared statement of Mr. Wheeler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Barrasso. Well, I want to thank both of you very 
much for your testimony. Throughout the hearing and with 
questions for the record, Committee members will have an 
opportunity to learn more about your commitment to public 
service and your commitment to service to our nation. I would 
ask that throughout the hearing you please respond to the 
questions today during the hearing, as well as written ones for 
the record.
    I have to ask the following questions that we ask of all 
nominees on behalf of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress, and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Ms. White. Yes.
    Mr. Wheeler. Yes.
    Senator Barrasso. And do you agree to ensure that 
testimony, briefings, documents, and electronic and other forms 
of information are provided to this Committee and its staff, 
and other appropriate committees, in a timely manner?
    Ms. White. Yes.
    Mr. Wheeler. Yes, I will.
    Senator Barrasso. And do you know of any matters which you 
may or may not have disclosed that might place you in a 
conflict of interest if you are confirmed?
    Ms. White. No.
    Mr. Wheeler. No, I do not.
    Senator Barrasso. Well, with that, Mr. Wheeler and Ms. 
White--let me start with Mr. Wheeler, but it is the same 
question then to Ms. Hartnett White. Could you talk about what 
accomplishments in your career you are most proud of?
    Mr. Wheeler. Wow. I would say I have had a lot of major 
accomplishments in my career, and I can point to some large 
bills here in the Committee; the highway bills that I worked 
on, the WRDA bill, my time at EPA. But I would have to say I 
have been in this town almost 30 years, and I would like to 
think that I have kept my personal integrity the entire time, 
and it is working also with the people that I have worked with 
on a day to day basis.
    I know--when I walked up here from the back of the room--I 
see several former staff people that have worked with me over 
the years, and it is those friendships that I have developed 
and the day to day work that I have done, and I have kept my 
integrity, and I have kept my principles intact the entire 
time.
    Senator Barrasso. Ms. White.
    Ms. White. I think the professional experience that I would 
be most proud of was the magnitude of reduction of ozone 
producing emissions in the Houston-Galveston area. Remember, 
that is the seat of the largest petrochemical complex in the 
world, with a climate highly inductive to ozone formation. And 
we did all kinds of innovative things. Talk about a process 
that involved coordination of multiple agencies at the Federal 
and State and local level.
    In fact, I said if we are right in all these measures that 
have been the source of the ozone plan, we will attain. Most 
people wouldn't have thought of it. We attained 2010, 2011. Of 
course, EPA has since strengthened the standard. We are close 
to, not quite there, but even more reductions have been made. 
If that can be done in Texas, that can be replicated in the 
world.
    And I think one of the key things was the most robust 
science, science particular to the ozone chemistry in the 
Houston-Galveston area. And I think it is exciting, were I 
confirmed, to have a job where that kind of achievement can be 
replicated across the country.
    Senator Barrasso. Let me follow up on that with both of 
you, because you have both chosen careers in environmental 
policy, so I ask why do you want to serve as the Deputy 
Administrator of the EPA, member and Chair of the CEQ in terms 
of continuing the work that you have done?
    Mr. Wheeler, if you want to start.
    Mr. Wheeler. Certainly. I really look at the career that I 
have had so far to date, and the timing of this position, as 
everything that I have done so far has led up to this at this 
point, starting as a career employee at the Agency, with my 
experience here.
    I really think I have some of the skills that would be 
useful to Administrator Pruitt and President Trump at the EPA. 
With Administrator Pruitt wanting to return to the basic 
programs of the EPA, I think I can be of help to him. I think I 
can be of help to President Trump, and I think I can be of help 
to the employees at EPA as we move forward in this new 
direction for the Agency.
    Senator Barrasso. Ms. White.
    Ms. White. I will try to articulate three reasons. Because 
my career has been so broad, it has allowed me to gain a lot of 
very useful, practical expertise with all environmental media; 
not just air quality, but water, waste, nuclear waste, in fact, 
as well across the many Federal environmental laws, and have 
had the challenge of making a very, very large bureaucracy 
function efficiently. I think to be able to apply what I have 
learned would be a great honor.
    The second is I am a great champion of getting rid of red 
tape. That is not saying anything, but this appears to be a 
time with the last two highway bills which this Committee 
approved, and the President's interest and executive orders and 
permit timeframe reduction and all of that, that this is a 
unique opportunity to have a bipartisan, supported by the 
President, major effort across the agencies to reform much of 
the NEPA process.
    Senator Barrasso. Well, thank you very much.
    I reserve the remainder of my time.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, welcome. A warm welcome to both of you two today.
    Ms. White, I was, frankly, surprised to hear the comments 
that you just shared with us with respect to ozone. In a number 
of articles and interviews, you have questioned whether ozone 
is even a harmful air pollutant. We heard a 2016--last year--
radio interview for a program called What's Up on the radio, 
and Ms. White, apparently you said that ozone isn't harmful to 
human health unless, and I quote you, ``you put your mouth over 
the tailpipe of a car for 8 hours every day.''
    You also called on Congress to remove EPA's funding for 
implementing the ozone air quality standards--this was last 
year--and said that the standard should be 85 parts per 
billion. That is a good deal higher than the 75 parts per 
billion standard set by President Bush in 2008, and even higher 
than the 80 parts per billion standard set in 1997.
    So I just thought it was interesting, the comments that you 
made here today.
    I would just ask of you, Mr. Wheeler, the EPA's current Web 
page says, with respect to ozone, ozone in the air we breathe 
can harm our health, especially on hot, sunny days when ozone 
can reach unhealthy levels. Even relatively low levels of ozone 
can cause health effects. And the Web page goes on to describe 
the increased risk of asthma, lung infection, other 
cardiopulmonary diseases that ozone exposure can cause.
    In your introduction, we learned that you have a combined 
biology major in college, spent a majority of your career 
working on clean air issues, and I know that from personal 
experience in working with you and Governor Voinovich. But what 
do you think about the adverse health impacts that are 
associated with the EPA? Do you agree with what is on that Web 
page that I just quoted?
    Mr. Wheeler. I am not familiar with the specific Web page 
that you have just quoted, but from what you said, I would 
agree with the health effects that you listed, yes.
    Senator Carper. All right.
    Ms. White, in 2015 and in 2016, in several speeches and 
interviews and articles in The Federalist and in Focus Today, 
you compared the views of people who believe that carbon 
pollution is causing climate change to those of pagans, 
ideologues, and communists. After Pope Francis published his 
2015 Environmental Encyclical, you wrote two articles for The 
Federalist that said that the solutions that Pope Francis was 
calling for would lead to poverty, socialism, and even 
concentration camps.
    And I would ask Mr. Wheeler, do you concur in those views?
    Mr. Wheeler. As a Presbyterian, I am not going to criticize 
the Pope.
    Senator Carper. That is not our style.
    Mr. Wheeler. You are asking me if I agree with--I am 
sorry--the views?
    Senator Carper. The characterization. Again, the articles 
that I quoted. Ms. White compared the views of people who 
believed that carbon pollution is causing climate change to 
those of pagans, ideologues, and communists, and said that the 
Encyclical that Pope Francis wrote would lead to poverty, 
socialism, and concentration camps.
    Are those views that you also embrace?
    Mr. Wheeler. I would not put it that way; no, sir.
    Senator Carper. All right.
    Today, this week, representatives I think from every 
country in the world are gathered in Bonn, Germany, discussing 
how we can address climate change together. The leaders of 
every country in the world, except for the current President of 
the United States, accept climate science and are committed to 
do something about it.
    Ms. White, do you really believe that the views of all 
those countries' leaders are properly compared to those of 
pagans, ideologues, and communists?
    Ms. White. No, I do not, Senator, and I think some of those 
words and phrases are taken out of context. I was, in that 
article, also quoting either the then-current or now recently 
stepped down head of the U.N. climate program, Cristina 
Figueras, who made a comment that a global agreement on climate 
change would provide the first example to destroy the economic 
model of the industrial revolution.
    Senator Carper. Well, I hold in my hand your quotes, your 
comments verbatim, and I think they speak for themselves. It is 
good that you are here and saying these things today. I am also 
glad that we have these words that you said repeatedly in the 
past.
    My time has expired.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Let me just begin. I would like to begin with Ms. Hartnett 
White.
    Do you believe that the CEQ should play a role in 
administering the Renewable Fuel Standard, the RFS?
    Ms. White. No, I don't. I think the current arrangement 
under law that it is the primary authority of EPA to administer 
and implement the Renewable Fuel Standard program.
    Senator Rounds. Can you share a little bit with regard to 
the Renewable Fuel Standard, which, truly, in the upper 
Midwest, has provided tremendous economic opportunity to 
Midwestern farmers? The use of corn, we can grow corn like you 
can't believe. As a matter of fact, the number of bushels per 
acre has continued to increase as good science has been 
utilized and as farming practices have continued to improve at 
a rapid pace. The American farmer has proven time and time 
again that they can produce and out-produce anybody else in the 
world. Investments have been made in the corn ethanol industry, 
and I want to make certain that this industry continues to 
thrive.
    Can you tell me your view of the economic benefits of the 
RFS and what it has provided to the Midwestern corn farmers?
    Ms. White. Yes, I would, and I would like to begin by 
thanking Senator Ernst--I don't believe she is here right now--
for sending me some current data on a number of the points you 
just made, sir. I second the President. I am supportive of all 
of the above of energy sources; all have special purposes and 
fill important niches.
    As you know, the President recently clarified his support 
for the Renewable Fuel Standard program, and I solidly support 
his support. CEQ has no direct regulatory authority over the 
Renewable Fuel Standard program, and I, of course, will support 
the letter of the law.
    What I like to say about the U.S. agriculture, never 
underestimate the productivity and innovative capacity of U.S. 
agriculture.
    Senator Rounds. Let me go one step farther, then, to 
clarify this. You have criticized the RFS in the past and the 
impact that you believe that it would have on the global food 
supply.
    Ms. White. Right.
    Senator Rounds. Can you elaborate on these statements and 
your belief today with regard to the RFS and any impact it 
would have on the global food supply?
    Ms. White. I would be happy to. I, in the early years of 
the program, made some particularly critical questions about 
whether ethanol would challenge the global food supply. Later, 
when I wrote a book, published 2 years ago, I erred by not 
assuring that I had current data, and the data that has been 
shared with me by Senator Ernst and others now, what a great 
victory; and I congratulate the corn industry.
    But the amount of increased productivity, how that has 
increased the supply of corn, that it appears now, on the basis 
of data now, there isn't any kind of inherent attention. There 
is enough on the surfeit that it has been so productive, and I 
salute the industry.
    And as a child of rural America, I painfully observed over 
much of my lifetime the decline of once vibrant small towns and 
people who would so like to stay there, but there just is not 
the employment. And an industry like ethanol has really 
contributed to giving new life to rural communities and keeping 
families together and all those things.
    Senator Rounds. Very good.
    Let me ask this also of both of you; and I will begin with 
Mr. Wheeler, but I want both of you to answer this. In the 
prior Administration there were several instances in which 
regulations were promulgated based on what I believe to be 
questionable science or without asking the science advisory 
boards for their input. It increasingly seemed like politics 
were replacing the science in the regulatory process.
    I would like to know your views on sound science and on the 
role that it plays in the Federal regulatory process, and I am 
going to end with this, as well. It goes beyond just your view 
of sound science, but being able to release the information 
upon which environmental policies are being based so that we 
can gain confidence in those decisions.
    And I think--as Ranking Member Carper has indicated--I am a 
firm believer that when requests from a member of the U.S. 
Senate are made, if they are not responded to, that does not 
provide confidence that the decisions have been made 
appropriately. I don't care whether it is a Republican or a 
Democrat Administration. That type of communication has to be 
respected. And I would like your thoughts on both of those, 
please.
    Mr. Wheeler. First, I am not a scientist, but I would 
certainly listen to the career scientists at the Agency and the 
outside science advisory boards to the Agency on what is the 
best available science at the time for any regulatory 
decisions. And I also agree with you and believe that all that 
should be out in the public for everybody to see, because I 
think when we make informed decisions, and we explain to the 
public why we are making the decisions, that is paramount to 
what we do at the Agency.
    Senator Rounds. Ms. Hartnett White.
    Ms. White. I think it is key to have access to that data. 
That is the bedrock data from which all kinds of other programs 
and analyses occur.
    Senator Rounds. The second part of my question was what 
about communications between members of the U.S. Senate and 
your offices; what is the belief? Do you believe that those 
requests should be responded to?
    Mr. Wheeler. Absolutely. I have a history on that with the 
Committee that would take me a while, but I worked with Senator 
Carper in 2001 to make sure that he had the Clear Skies data 
that he was looking for, and I worked with Senator Jeffords' 
staff in 2003 to try to make sure that they had the information 
that they were requesting from the EPA.
    Senator Rounds. Ms. Hartnett White.
    Ms. White. And I agree, yes, I think that is essential to 
making the full Federal Government work.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Carper. Chairman, can I ask unanimous consent for 
the record that the six times that Ms. White has called for the 
repeal of the Renewable Fuel Standard in the past decade, as 
recently as last year, be made a part of the record?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Senator Barrasso. I would also point out that under Ms. 
White's leadership from 2001 to 2007, the Texas Commission on 
Environmental Quality issued administrative orders that 
required payments of more than $47 million in penalties. During 
that time, the Texas Attorney General's Office obtained civil 
judicial orders in cases involving TCEQ that required payments 
of more than $380 million, and I also ask unanimous consent 
that we insert this into the record. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Barrasso. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I want to thank both of our nominees for their willingness 
to serve in a very important public position.
    Mr. Wheeler, I particularly want to underscore the message 
you made in your opening statement to the career people at EPA. 
I very much appreciate that statement. And I was impressed by 
your highlight of maintaining your integrity, which, to me, is 
not always easy. It is a proud accomplishment. It is always 
good to see a person from our staff move on, so it is good to 
see you here.
    Mr. Wheeler. Thank you.
    Senator Cardin. I want to first ask consent that a letter 
signed by 47 conservation, environmental, and public health 
organizations to members of this Committee in opposition to Ms. 
White's confirmation be made part of the record based upon that 
she should not be placed in such a pivotal position in an 
agency whose mission she clearly does not believe in. I would 
ask unanimous consent.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Cardin. Ms. White, I want to follow up on some of 
Senator Carper's points about your comments. Just last Friday, 
the Trump administration released the fourth National Climate 
Assessment for the U.S. Climate Research Program, reiterating 
that human activity is the dominant cause of global temperature 
rise.
    Now, I say that in that COP 23 is convening this week in 
Bonn, Germany, the twenty-third opportunity for the 
international community to come together on climate issues, and 
I particularly was concerned about an article you wrote that 
contains much of what Senator Carper was referring to. The 
article was Signing the Paris Agreement Is the Worst Way to 
Celebrate Earth Day.
    Now, when the climate agreement was signed, there were two 
countries that did not participate; the rest of the global 
community did. Those two countries have since now joined the 
Paris agreement, so it was the entire global community that 
came together, and now there is one country that is backing off 
of it: the United States.
    So I have a responsibility, as the Ranking Democrat on the 
Senate Foreign Relations Committee, which has primary 
responsibility over the international global discussions on 
climate. So I questioned Secretary nominee Rex Tillerson as to 
his views on this, and he was very open and said, yes, the 
United States should be sitting at the table during climate 
discussions with the international community, and yes, climate 
change is real. There may be different ways of dealing with it, 
but it is real, and we have to deal with it.
    It seems to me that you don't believe climate change is 
real.
    Ms. White. I am uncertain.
    Senator Cardin. You are uncertain.
    Ms. White. No, I am not, I am sorry. I jumped ahead. 
Climate change is of course real.
    Senator Cardin. Does human activity affect climate change?
    Ms. White. More than likely, but the extent to which I 
think is very uncertain.
    Senator Cardin. Have you relied on scientists to give you 
that answer or not?
    Ms. White. No, I had the question for a very long time.
    Senator Cardin. So you have a distinguished background in 
academics and humanities and religion.
    Ms. White. Yes.
    Senator Cardin. Which is fine. It is a wonderful field. You 
are not a scientist, are you?
    Ms. White. No, I am not a scientist, but in my personal 
capacity I have many questions that remain unanswered by 
current climate policy. I think we indeed need to have more 
precise explanation of the human role and the natural role.
    Senator Cardin. And where do you get that information from?
    Ms. White. A wide range of information. The IPCC is a very 
good source.
    Senator Cardin. What is that?
    Ms. White. United Nations Intergovernmental Panel on 
Climate Change that has been the vehicle for ongoing assessment 
of climate change.
    Senator Cardin. What role do scientists play in this?
    Ms. White. Many of them are the authors. There are 
thousands of them involved in the whole, but they are, of 
course, they are scientists.
    Senator Cardin. Would you support the EPA allowing its 
scientists to fully participate in all discussions?
    Ms. White. I don't see why not. I think science should 
overwhelmingly guide assessments and all of that, but I don't 
think they dictate policy results.
    Senator Cardin. Do you stand by your statement that carbon 
dioxide, greenhouse gases are not dangerous at all to our 
environment?
    Ms. White. I would characterize it differently, but I would 
say that, as I did earlier, it is likely that CO<INF>2</INF> 
emissions from human activity have some influence on the 
climate, but again, not to the extent, but CO<INF>2</INF> in 
the atmosphere has none of the characteristics of a pollutant 
that contaminates and fouls and all of that that can have 
direct impact on human health. As an atmospheric gas, it is a 
plant nutrient.
    Senator Cardin. One last question, Mr. Chairman, and that 
is, you disagreed with the Supreme Court decision that said 
that the EPA had a responsibility because of the impact of 
greenhouse gases on public health. Are you now changing that or 
do you still----
    Ms. White. That was styled as the Massachusetts decision in 
2007. That is the Supreme Court's ruling. That is the law of 
the land.
    Senator Cardin. But you think it was based on the wrong 
scientific information?
    Ms. White. No. I thought it was based on an overly 
expansive reading of the definition of an air pollutant in the 
Clean Air Act.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Carper. Mr. Chairman, I ask unanimous consent to 
submit for the record materials relating to Ms. White's views 
that higher carbon dioxide levels are not harmful to our 
environment.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
     
    
    Senator Barrasso. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you both for being here today.
    Mr. Wheeler, I appreciated you coming to meet with me, and 
in our meeting we did discuss the importance of the RFS to my 
State and to the viability, I believe, of all of rural America.
    The Deputy Administrator plays an important role in 
ensuring that the Renewable Fuel Standard functions according 
to congressional intent. How familiar are you with the 
President's commitment to the RFS and to biofuel production, 
and will you uphold the President's commitment to the RFS?
    Mr. Wheeler. Thank you, Senator. I enjoyed our visit and 
talking about this issue in your office.
    The RFS is the law of the land, and I fully support the 
program. I have not had specific conversation with the 
President on this issue, but from all accounts, fully supports 
the program and the intent of the program, and I support both 
the law and the intent of the RFS program.
    Senator Fischer. Thank you very much.
    Ms. White, as I discussed in our meeting, I do have serious 
concerns with numerous factually incorrect statements you have 
made about the RFS. I worry about your lack of understanding 
about the purpose of the law, which is to provide market access 
for renewable fuels and to promote agriculture and to promote 
rural America. As I have stated multiple times, I support an 
all of the above energy policy, but I worry about your 
extremist views and your role as an advisor to the President.
    We are all aware of your statements and position on the 
RFS. However, it is the law of the land. Should you be 
confirmed, I would ask you will you echo President Trump's 
support for the statute and uphold the congressional intent of 
the RFS?
    Ms. White. Yes, I would. That is what I understand as 
upholding the rule of law.
    Senator Fischer. Do you think it is important to provide 
the President with accurate, factual information when you 
provide him with options on issues, if you are confirmed?
    Ms. White. Absolutely. And that advice needs to be based on 
the most solid, informed, robust science and data.
    Senator Fischer. In our conversation in my office, and in 
your answers to Senator Rounds, you did state that you used 
flawed data as recently as 2014, as recently as 2016 with 
regards to the RFS in making statements such as ethanol 
policies of the United States have led to food riots in several 
countries over the last few years. That was in 2014.
    I would ask you if you can guarantee in any way to us that 
you will check data, that you will check facts, that you will, 
in your capacity, if you are confirmed in this position, to 
always, always check and make sure you are providing that 
accurate information to the President of the United States when 
you give him options?
    Ms. White. The specific question, please?
    Senator Fischer. Will you use facts when you are presenting 
options?
    Ms. White. Oh, of course.
    Senator Fischer. And current data.
    Ms. White. And the 2014 statements you are talking about 
was a part of the book.
    Senator Fischer. Will you use current data and facts?
    Ms. White. Yes, I will, unquestionably.
    Senator Fischer. Thank you.
    I would remind people that we are talking about more than 
corn here. Of course, when we talk about the RFS and renewable 
fuels, we are looking at second generation biodiesel. We are 
looking at our soybean growers, as well. This is a huge issue 
for rural America, and we need to take it seriously.
    As a follow up, Ms. White, there have been press reports 
about some interest in altering the RFS before 2022. I would 
ask would you commit to me today that, should you be confirmed, 
you would not support opening up the RFS before 2022?
    Ms. White. I would support the President's position in 
that.
    Senator Fischer. So you will not commit that to me at this 
point?
    Ms. White. I can't really prejudge that.
    Senator Fischer. OK.
    Ms. White. And I might also add it is not because, at 
another time, I would feel comfortable making a clearer 
position.
    Senator Fischer. OK, fair enough. Thank you.
    Mr. Wheeler, we also discussed the importance of 
communication between the EPA and stakeholders that are 
impacted by regulations. For many years I have heard a lot of 
frustrations from constituents about the lack of dedication at 
the EPA to assist with compliance requirements for communities 
and for businesses.
    Sometimes we have seen in the previous years really an 
agency that I think works on a gotcha mentality instead of 
looking at a collaborative approach. So I would ask you if you 
would look at using collaborative or cooperation with 
federalism in working with States and local communities, and 
really being an agency that assists States and local 
communities to meet and be in compliance with regulations that 
are so very important for us.
    Mr. Wheeler. Absolutely, Senator. Administrator Pruitt's 
commitment to cooperative federalism I think goes right along 
with what you just said, and I am looking forward to helping 
him implement that.
    Senator Fischer. Thank you so much.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Carper. Mr. Chairman, can I make a unanimous 
consent request that a number of references in recent years to 
paganism, communism, relating that to climate change from Ms. 
White be entered into the record, please?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    Ms. Hartnett White, I am very concerned about environmental 
justice issues in our country, and I have this belief--which I 
don't think is radical--that every American should have access 
to clean air, clean water, even clean soil to plant in. Because 
of the issues of urban areas, I live in the central ward of 
Newark and see how challenging the exposure to particulate 
matter is for children in my city that I was mayor of; asthma 
rates off the charts, teachers complaining about even just 
being able to educate kids because of the level of kids' 
missing school because of asthma.
    But this is not just a New Jersey problem. I have traveled, 
since I have been on this Committee, to Duplin County, North 
Carolina, where people who live around CAFOs have alarming 
rates not just of cancers, but also of respiratory diseases. A 
few months ago I was in a place unfortunately nicknamed Cancer 
Alley in Louisiana, between Baton Rouge and New Orleans, where 
again, particulate matter released by petrochemical plants has 
people literally gasping for air at alarming rates.
    A lot of my colleagues have already mentioned some of your 
alarming rhetoric on some of these issues, but I just really 
have an urgent concern about your views of the dangers of 
particulate matter in some of your past statements. I was 
really shocked when my staff pulled documents that showed that 
at an Americans for Prosperity conference in 2011, you publicly 
stated that ``people do not die from particulate matter 
levels.'' Then again in 2013 you testified actually before a 
House subcommittee and said that ``In the last 5 years, EPA's 
regulatory initiatives have been preoccupied with particulate 
matter as if it was a source of major risk to premature 
mortality.''
    I look at a lot of the data and studies, and I had my staff 
pull for the hearing, and they pulled one study, which is one 
of the most comprehensive, really an unprecedented study that 
was published in the New England Journal of Medicine from 
Harvard University, which looked at 60 million Medicaid 
participants, 60 million people over a 12-year period, 
longitudinal study of an unprecedented nature, with far more 
statistical power than any previous analyses done.
    The researchers looked at every American over 65, including 
people in rural places like I named and urban places like I 
live in, and the analysis unequivocally linked long term 
exposure to ozone and fine particulate matter to an increased 
risk of premature death. The study found, in fact, no evidence 
of safe levels of exposure to particulate matter. It really 
sounded the alarm.
    And I will tell you what is disturbing to me is how this 
particulate matter seems to affect low income people. It 
affects poor folks, and as a result, disproportionately people 
of color. And they show that the higher risk of premature 
deaths for African-Americans, for example, are three times 
higher. Three times higher.
    So I just really need to understand your position on the 
urgency of particulate matter and dealing with this 
environmental justice. So maybe the specific question, first of 
all, do you think the New England Journal of Medicine is wrong 
in this study about the crisis of particulate matter?
    Ms. White. Senator, I would have to read it before I answer 
that. But if I may, I would like to tell you about some work I 
am proud of regarding environmental justice in Texas.
    Senator Booker. You will forgive me, but I only have a 
minute and 10 seconds left, so I just would like to push you a 
little bit. So you think the New England Medical Journal of 
Medicine might publish a study that isn't scientifically sound?
    Ms. White. I think there's all different kinds of 
methodologies, and if I were still at TCEQ, I would gather my 
chief toxicologist and his staff, the professionals, to 
completely absorb that and brief me on it.
    Senator Booker. So I think what I am trying to get at is do 
you or do you not believe that we have a crisis of particulate 
matter in the United States of America in certain communities 
now, especially low income communities?
    Ms. White. Why, when the bulk of the country attains the 
national ambient air quality standard for fine particulate 
matter, that, to me, is confusing, if there is a crisis.
    Senator Booker. Well, I don't find it confusing; I find it 
really concerning, as we have a nation right now with the No. 1 
reason why kids miss school, medical reason, is asthma; that we 
see that disproportionately in communities that are dealing 
with real problems with particulate matter, whether it is 
highways, airports, CAFOs, or the like.
    I find it deeply, deeply concerning your past statements 
and your inability right now to say for the record that you 
think there is a crisis in this country with particulate matter 
and the respiratory diseases that are affecting so many of our 
children. To take a position that is supposed to be protecting 
people to a fundamental American right of clean air, clean 
water, I have grave concerns about your nomination.
    But my time has expired.
    Senator Barrasso. Senator Carper.
    Senator Carper. Mr. Chairman, could I ask unanimous consent 
that Ms. White's views be entered into the record relating to 
her view that particulate matter does not harm human health, 
please?
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    Senator Barrasso. I would also like to point out that Dan 
Patrick, the Lieutenant Governor of Texas, has written in 
support of Ms. White's nomination. He goes on to say, ``Ms. 
White has over 30 years' experience on environmental issues, 
served as Chair of the Texas Commission on Environmental 
Quality and as Director of the Texas Water Development Board 
and the Lower Colorado River Authority.'' He goes on to say, 
``Her record is outstanding.''
    Unanimous consent to enter this into the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    And thank you to our witnesses and nominees today.
    While campaigning, then-candidate Trump made numerous 
pledges to support biofuels and the Renewable Fuel Standard. 
You see it has been a topic that has been brought up a lot this 
morning. And he had reiterated those commitments as President, 
as well. He understands the value of an all of the above 
approach to energy production that helps our nation unlock all 
of our bounty--regardless of where that comes from--from oil 
and gas to wind, solar, and biofuels.
    Specifically, biofuels form the bedrock of our rural 
communities and support our farmers, while helping to further 
our domestic energy independence. We are producing and 
consuming more biofuels now than ever before, and yet the price 
of corn and soybeans, the primary feedstocks for producing 
biodiesel and ethanol, are at the lowest levels in decades.
    Right now, at the Merc, in Red Oak, cash corn is right 
around $3 a bushel, and soybeans are under $9, and both of 
these numbers are well below our cost of production. So, today, 
as my husband sits in the tractor helping my sister and 
brother-in-law with harvest, they are finding that their return 
on the investment is very, very low. The prices are so low that 
farmers working around the clock to bring in this huge crop are 
losing money on every acre. And I think this should put the 
food versus fuel debate to rest for good.
    EPA Administrator Pruitt has already done so much to help 
our farmers and ranchers, including rolling back the onerous 
WOTUS rule. He has also committed to me on several occasions, 
including in front of this Committee, to uphold both the spirit 
and the letter of the law, and I want to thank both of you for 
making that commitment, as Senator Fischer had asked, in front 
of this Committee today. So thank you for doing that.
    Ms. White, during our meeting last week, I had the chance 
to ask you about your qualifications for this role, as well as 
your past criticisms of the RFS and biofuels, particularly the 
food versus fuel argument, which is something I believe Senator 
Rounds also addressed. In light of the current market forces at 
work in the ag economy, which I touched on in my opening, has 
your position on this changed?
    Ms. White. On the food?
    Senator Ernst. Food versus fuel.
    Ms. White. Yes. This data, you know, is great news, because 
the ethanol program doesn't somehow create some problem with 
meeting global food demand.
    Senator Ernst. Thank you. And if confirmed, you will be 
working closely with the President in your advisory role at 
CEQ. The President has made clear on numerous occasions that he 
intends to uphold both the spirit and the letter of the RFS. Do 
you envision any scenarios out there in which you would offer 
advice to the President or support policies that run contrary 
to his agenda or campaign promises?
    Ms. White. There is none that comes to mind, but you know, 
matters change, so I couldn't, you know, exactly predict what 
would be the variables involved.
    Senator Ernest. Should those variables change, though, you 
will do your best to work with varying points of view to make 
sure that the information is accurate and presented 
appropriately to the President?
    Ms. White. Absolutely.
    Senator Ernst. OK, thank you.
    And also for Mr. Wheeler, the primary concern that many of 
the opponents of the RFS have raised is the price of compliance 
credits, or the RINs, and one way we have suggested to mitigate 
that is to address the Reid vapor pressure, or RVP, issue, 
which would make E15 and higher blends of ethanol available 
year round nationwide. There is some debate as to whether or 
not this RVP issue can be addressed administratively or whether 
it requires legislation, such as the bill that was introduced 
by Senator Fischer.
    If confirmed, would you commit to issuing a determination 
on whether the EPA can do this administratively?
    Mr. Wheeler. Yes. I just want to make sure that I am not 
committing to predetermine what the outcome would be.
    Senator Ernst. Exactly.
    Mr. Wheeler. But if I understood your question correctly, 
then, yes.
    Senator Ernest. Yes or no, yes, that you could do it 
administratively. We need to know that.
    Mr. Wheeler. Not prejudging that yes or no, yes, I could 
commit to providing one of those at the appropriate time.
    Senator Ernst. Thank you. I appreciate that, because we 
need that determination from the EPA. If you are not able to 
handle the RVP issue administratively, then we need to turn to 
a bill or do it legislatively, such as Senator Fischer has 
presented, so we would need to work that issue through 
Congress. And I do look forward to working with you on this 
issue. I think we do need to make E15 available year round, and 
again, work on our energy independence, as the President has 
made this one of his goals.
    So, with that, Mr. Chairman, I thank you for my time.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Carper. Mr. Chairman, can I make another unanimous 
consent request?
    Senator Barrasso. Senator Carper.
    Senator Carper. If I could submit for the record a November 
7, 2017, letter from the Delaware Riverkeeper Network to 
members of our Committee. The letter urges the Committee to 
reject Ms. White's nomination on the basis that her record is 
of loyalty and bias in favor of the fossil fuel industry. The 
letter states, ``Someone who claims that `there are no major 
environmental problems' facing our country has no business 
developing and implementing environmental policy at a time when 
our nation is facing the greatest environmental threats as ever 
encountered.''
    That is the end of the quote. I thank you, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Also for the record, I would like to 
introduce by Dr. Bryan Shaw, the Chairman of the Texas 
Commission on Environmental Quality, that was written in 
support of Ms. White's nomination. Dr. Shaw explains, ``As the 
current TCEQ Chairman, I have a unique perspective on her 
contribution to this agency. Serving as the TCEQ chairman is no 
easy feat, and she served the State of Texas with grace and 
poise.'' He goes on to say, ``As evidenced by her career and 
background in environmental regulations, Kathleen is more than 
capable to serve as the Chairman of the Council on 
Environmental Quality.''
    Ask unanimous consent. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. White, your positions are so far out of the mainstream 
that they are not just outliers, they are outrageous; and from 
my perspective, you have a fringe voice that denies science and 
economics and reality. So I would like to turn to a subject 
here that you have commented on, and that is the renewable 
industry. You said in 2016, ``Renewables are a false hope that 
simply won't work.'' In the same piece you said, ``Intermittent 
renewables are parasitic on backup power from reliable fossil 
fuels.''
    Well, wind power is now up to 7 percent of all of our 
electricity. In 2020 we are projected to have 120,000 megawatts 
of wind, and we now have over 100,000 Americans working in the 
wind industry. By 2020 we are going to have half a million 
Americans working in the wind and solar industry--half a 
million Americans. Most of them are good paying, blue collar 
jobs. These are roofers, they are electricians, they are steel 
workers, they are people who are going to be engineers working 
on the turbines.
    Are you saying that these 500,000 people are parasitic, 
that they are working for an industry that is parasitic and 
harming America?
    Ms. White. I would like to make two points of 
clarification. The false hope phrase comes from one of the 
several engineers hired by Google to come out with a plan where 
you could really be powered by 90 percent by renewables when 
that was their conclusion, that as a matter of physics 
renewables----
    Senator Markey. Do you think the wind and solar blue collar 
workers are working for a parasitic industry?
    Ms. White. In using the word parasitic, I was only 
referring to the fact that when you have an intermittent energy 
source, you have to have a backup with a steady state reliable 
source. I was not talking about any employees.
    Senator Markey. Well, the impression you leave is that this 
is not a real industry, that wind and solar are not actually 
playing a vital part in producing new energy in our country, 
whether it be in Iowa, which is now upwards of 35 or 40 percent 
of all electricity with wind, and State after State. So I just 
think it is an unfortunate and cruel characterization of all of 
these workers, and it will be a half a million by 2020, at the 
current pace, most of them blue collar.
    If it was 50,000 coal miners, you would never say that 
about coal miners. But why would you say it about the 500,000 
blue collar workers who are in the renewable energy? It is just 
absolutely wrong, and calling them inconsequential is even more 
wrong in terms of your economic analysis. It is a very real 
addition, and it is growing, and that is what is most fearful 
in the hearts of the coal industry. But you can't characterize 
them in a way, these workers; that is so painful, I am sure, to 
hear them be described as working in industries that aren't 
contributing dramatically to American economic growth.
    Mr. Wheeler, as a former lobbyist for Murray Energy, you 
have made a career working on behalf of the fossil fuel 
industry to eviscerate regulations designed to protect public 
health and the environment. Murray Energy has sued EPA to stop 
clean air and water protections. Five of those cases are 
ongoing. As EPA Deputy Administrator, you would be in a 
position to serve as plaintiff, defendant, judge, and jury of 
these ongoing five lawsuits.
    Will you agree to recuse yourself from these lawsuits which 
Murray Energy brought against the EPA not just for 1 year, but 
for the entirety of the time that you are the Deputy 
Administrator of the EPA? Will you commit to recusing yourself 
from any of those matters?
    Mr. Wheeler. Two points. First of all, I am not sure which 
of the five. My law firm did not represent Murray in any of the 
litigation against the EPA. I have talked to the career ethics 
officials at the Agency, and I have had preliminary discussions 
with them on my recusals, what I would have to do, and I am 
going to follow the guidance that they have given me, and I 
will not be meeting with my former clients or my former law 
firm, in following the advice and guidance of the career ethics 
officials at the Agency.
    Senator Markey. Will you recuse yourself from the lawsuits, 
which are still ongoing, that have been brought by the interest 
that you were representing before you were nominated for this 
position?
    Mr. Wheeler. Again, Senator, I will abide by the guidance 
and requirements given to me by the career ethics officials at 
the Agency on what I would have to recuse myself from. At this 
point, in discussions with them, I don't anticipate needing any 
waivers. I will be recusing myself from any work where there is 
a conflict going forward.
    Senator Markey. I am just afraid you are going to wind up 
as the plaintiff, defendant, judge, and jury in one of these 
five matters, and I just think it would be wrong.
    Thank you, Mr. Chairman.
    Senator Inhofe [presiding]. Thank you, Senator Markey.
    First of all, right now I don't think I will ask any 
questions of Andrew Wheeler since he worked with me and for me 
for 14 years. There is nothing I could ask that I don't already 
know. You will be a great, great help to the EPA.
    I would like to make one observation though. All the 
discussion on this side has discussed the RFS. The RFS, in 
fact, is really in the jurisdiction of the EPA and not the CEQ. 
Actually, Andrew, that is your problem and not hers.
    Let me say to Ms. White, I understand several of the 
extremists are driving a narrative that you hate the 
environment and worked to give cover to polluters when you were 
at Texas Commission CEQ. However, I was looking at the 
enforcement numbers of the Texas CEQ during your tenure. To me, 
it looks like a number of administrative orders and amounts of 
penalties increased significantly. I think that is very 
important because you had a job to be agnostic in terms of who 
you were criticizing and blaming and so forth. Would you 
address that?
    Ms. White. I would be happy to. I might share with you an 
example of my commitment to environmental protection. I really 
think totally in terms of fundamental protection of human 
health and welfare. Risk to children particularly motivates me.
    In response to an environmental justice issue, we had a 
program where we went to key plants within the vast Houston 
industrial petrochemical complex and really increased the 
amount of air monitors so we could really know what we were 
dealing with. We required that operators of the industries in 
question had fence line monitors, very expensive things to do. 
We got the data. We had sensors on the families who were most 
concerned or who had demonstrable health impact so we could get 
that information. We worked back to the industry to operate in 
a way that minimized or eliminated the troubling pollution.
    Senator Inhofe. How about penalties?
    Ms. White. Yes, and a lot of those were following Federal 
Clean Air Act, Federal Clean Water Act, very important and 
essential portions of environmental protection. I took that 
very seriously.
    I think, regrettably, part of the reason why we were able 
to reduce emissions so much was that there was certain 
enforcement, if there was any departure from their permits that 
could possibly have been controlled.
    Senator Inhofe. Information that I have, which I think 
needs to be in the record, is that you have penalized companies 
that did not comply with the very thing that has been emanating 
from the other side of the aisle.
    Ms. White. We have 16 regional offices in Texas, and almost 
all are devoted to investigations and enforcement actions if 
they are needed.
    Senator Inhofe. Thank you very much.
    We have had 8 years of an Administration that does not want 
fossil fuels, coal, oil, and gas, and does not want nuclear. 
Yet sometimes you just have to appeal to logic and ask the 
question. If well over 80 percent of the energy it takes to run 
America is either fossil fuels or nuclear, and you extract that 
from all of the above, how do you run the machine called 
America? Another way of putting it is, are there risks 
associated with solely relying on renewable energy?
    Ms. White. We have seen in other countries that is the case 
in Germany and the UK. I might qualify by saying I am not as 
current on these numbers as previously, but the average retail 
electric rates in Germany are two to three times higher than 
the average retail rates in this country in significant part 
for the reason that they are very aggressive.
    Senator Inhofe. I would further say you have actually been 
criticized for some of the penalties that have come from your 
office in the State of Texas. I know that is true because I 
know some of the individuals.
    As chair of the Texas CEQ, one of your responsibilities was 
to review applications for new electricity generation. Can you 
tell us about the process you used when deciding whether to 
permit new electricity generation?
    Ms. White. We followed the law, first of all, importantly, 
the Clean Air Act as interpreted by EPA. We required all kinds 
of maybe more data, meaningful modeling, and robust science as 
a part of that.
    They are permits that derive from the Federal Clean Air 
Act, but we did the permits in a very, very strict way.
    Senator Inhofe. I appreciate that very much. My time has 
expired.
    I wanted to show and demonstrate what you, as the 
Administrator of the Texas CEQ, did in following the law 
regardless of who was responsible. Thank you.
    Senator Barrasso [presiding]. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Mr. Chairman, there is another voice from Texas that has a 
rather different view of Ms. Hartnett White. That is the Dallas 
Morning News, the local newspaper which under the headline, 
Trump Errs in Naming Climate Denier and Former Texas Regulator 
to Environmental Post, went on to say, ``Her performance as an 
environmental regulator in Texas suggests that she would lock 
step in dismantling vital environmental protections.''
    They described her record as, ``abominable.'' They 
described her as ``an apologist for energy interests.'' They 
concluded by saying, ``The nation needs a White House advisor 
who respects science and seeks a reasoned balance between 
energy needs and environmental protections. Kathleen Hartnett 
White does neither.''
    They went on to put in a kind of special extra section with 
a list of bullet points on why Kathleen Hartnett White is wrong 
for the job. I would ask unanimous consent that the Texas 
editorial be put into the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Whitehouse. Mr. Wheeler, was anything happening 
when you climbed Kilimanjaro that relates to fossil fuel 
emissions?
    Mr. Wheeler. The air was very thin, if you are referring to 
the glacier.
    Senator Whitehouse. I am asking you, was anything happening 
on Kilimanjaro?
    Mr. Wheeler. The glacier is still there on top.
    Senator Whitehouse. That is not answering my question.
    Mr. Wheeler. I did not understand your question, then.
    Senator Whitehouse. Was there anything going on that you 
are aware of, did you learn anything about what was happening 
on Mt. Kilimanjaro that relates to fossil fuel emissions?
    Mr. Wheeler. No, sir.
    Senator Whitehouse. Nothing. OK.
    You are a lobbyist for Murray Energy?
    Mr. Wheeler. Yes, Murray Energy is one of my clients.
    Senator Whitehouse. The head of Murray Energy, Bob Murray, 
has said that he has a 3-page plan that is being implemented by 
Scott Pruitt at the EPA. He said they are already through the 
first page. What can you tell us about Bob Murray's 3-page plan 
that he claims Scott Pruitt is implementing at the EPA?
    Mr. Wheeler. I did not work on that, and I do not have a 
copy of that memo.
    Senator Whitehouse. Would you be able to get your hands on 
one?
    Mr. Wheeler. I also have client confidentiality concerns 
with my clients as well. I don't have a copy of the memo, no.
    Senator Whitehouse. We also have disclosure interests when 
you are a candidate for a significant Federal position. Are you 
asserting that there is attorney-client privilege between you 
and Murray Energy Corporation with respect to the 3-page plan?
    Mr. Wheeler. I have deregistered representing him as of 
August. I don't have one in my possession.
    Senator Whitehouse. Have you seen it?
    Mr. Wheeler. I saw it briefly at the beginning of the year, 
but I don't have a copy of it.
    Senator Whitehouse. Do you recall anything about it?
    Mr. Wheeler. No. I don't even know how many pages it was. I 
think you said it was three pages?
    Senator Whitehouse. That is what Bob Murray said it was. I 
have never seen it, so I would not know, but he said he had a 
3-page plan that Scott Pruitt is implementing for him at the 
EPA and that he is through the first page for Bob Murray 
already. I am trying to inquire about that.
    You said you have seen it. Does it look like three pages, 
two pages, or four pages? You are the one who saw it.
    Mr. Wheeler. Somewhere around there. I did not have it in 
my possession. I looked at it and handed it back to him.
    Senator Whitehouse. Do you remember where you were when you 
looked at it and what the context was for that conversation?
    Mr. Wheeler. No, actually, I don't. It may have been in our 
offices, but I don't remember.
    Senator Whitehouse. ``Our offices'' meaning your law firm?
    Mr. Wheeler. Yes.
    Senator Whitehouse. I guess I will try to follow that up 
further with questions for the record because I think it is 
something of a significant situation if the CEO of a regulated 
industry is saying he has given his regulator a 3-page plan and 
takes credit for having gotten through the first page of it 
already. We have a candidate for Deputy Administrator who said 
he has seen it and confirm that it exists.
    I think the American people are entitled to an EPA that is 
not following a coal company's 3-page plan but is following 
wherever the best interests of the American people lead, 
wherever the best interests of real science leads.
    I hope the Chairman will allow us to consider pursuing how 
we get our hands on this 3-page plan that Mr. Wheeler has seen 
and that evidently, according to Mr. Murray, is now driving 
what happens at EPA.
    I have one question for Ms. Hartnett White. Are you aware 
of anything that is happening in the oceans that relates to 
fossil fuel emissions?
    Ms. White. There are probably a number of them.
    Senator Whitehouse. Name a few.
    Ms. White. I have a very superficial understanding as far 
as that. Acidification issues are one. I have not read widely 
or deeply. I have read some with different perspectives, some 
of which suggest that it is a very, very fragile set of changes 
in acidification and others that say for long eons in 
geological history, there are certain places where certain 
oceans may have changes in acidification levels but not others.
    Changes up or down are not inherently a problem, but no, I 
cannot speak as an authority on that. I am aware it is one of 
the multiple key issues as far as potential impacts of manmade 
global warming.
    Senator Whitehouse. My time has expired, Mr. Chairman. 
Thank you for letting me go over about 50 seconds.
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Thank you all for being here and your willingness to serve.
    I just came back from the floor of the Senate. I was 
speaking about a veterans' bill that myself and Senator Wyden 
had worked on together and were successful in getting it 
eventually put into another bill and passed. It is an important 
thing that really will make a difference for several 
individuals in the military.
    Over the years, Mr. Wheeler, you have been an integral part 
of helping this Committee pass many important pieces of 
legislation. Like the Veterans Committee, this Committee has 
areas where we do not have a lot of agreement, but we have 
other areas where we have tremendous agreement. You have played 
a big part in helping us put those together.
    A lot of people don't understand how difficult it is 
getting a comprehensive, bipartisan piece of legislation 
passed. How do you feel your role as a staff member at the EPW 
Committee has prepared you to bring people from all walks of 
life to the table to develop and implement important EPA 
regulations?
    Mr. Wheeler. Working here for 14 years, I worked on a 
number of different bipartisan bills, including three different 
highway bills, several WRDA bills, the Diesel Emissions 
Reduction Act with Senators Carper and Inhofe, and brownfields 
legislation.
    Throughout the time I spent here, I met with a wide variety 
of people with concerns and problems before the Federal 
Government that needed help from Congress, not just legislative 
help but help with agencies.
    It ties back to my time when I worked at the EPA at the 
beginning of my career. I think between my time here working on 
the different bipartisan bills and trying to work across the 
aisle, there were a number of bills that we tried to work 
across the aisle that we just were not able to get over the 
finish line over the years.
    I learned lessons not only from our accomplishments but 
also from some of our failures. I think what I learned most of 
all is that both sides come to the table with strong views 
sometimes, but wanting to do the right thing.
    It is important to try to work past some of the politics to 
get to solutions that help the American people.
    Senator Boozman. Very good.
    You mentioned just now your time at EPA and EPW and got 
some good environmental outcomes that also provided regulatory 
certainty for the country. Can you talk about the benefit to 
the environment and economic benefits when you have regulatory 
certainty?
    Mr. Wheeler. Absolutely. I think regulatory certainty is 
very important. In my time working with a number of different 
clients and different industries, it is not that people are out 
there trying to figure out what to do wrong or how to break a 
rule or regulation. They want to know what the rules are and 
want to know with certainty as they move forward with projects, 
what they have to do and what the requirements are.
    I think it is incumbent upon the EPA to make sure that is 
clear for anyone trying to do business in the United States. I 
don't think we would have as many violations if everyone 
understood what the requirements were and what they had to do.
    Senator Boozman. A criticism of EPA during the previous 
Administration, in fact I would say Administrations in general, 
was the Agency's disconnect with rural America. Many 
hardworking Americans in rural States felt they did not have a 
voice with past Administrations and that their opinions did not 
matter.
    If confirmed, what would you do to facilitate a stronger 
level of trust between EPA and rural America?
    Mr. Wheeler. I have an absolute respect for rural America. 
In my first year working for Senator Inhofe, I went out to 
Oklahoma and put 1,000 miles on a rental car driving all over 
the State and a lot of small communities. I understand the 
problems they face.
    I understand the need for EPA to work with the States, 
through the regions with the States and the local communities 
to make sure everyone understands what the environmental 
priorities are, what the environmental requirements are, and to 
work with people to make sure we can have a clean and safe 
environment, protect the public health and environment, and 
have job security and economic growth.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Boozman.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Mr. Wheeler, you noted that your client, Murray Energy, 
showed you a 3-page plan on how to dramatically change the EPA. 
At the time you saw that plan, were you already a nominee for 
this position?
    Mr. Wheeler. No, I was not.
    Senator Merkley. Did the client express interest that he 
hoped you would be able to help advance that plan?
    Mr. Wheeler. No.
    Senator Merkley. Why did your client show you that plan?
    Mr. Wheeler. This was back in either December or January, 
almost a year ago.
    Senator Merkley. Was it in the interest of having your help 
to promote it?
    Mr. Wheeler. No, it was just to look at it, to see what 
they had put together.
    Senator Merkley. Ms. White, you said ``There is no 
environmental crisis. In fact, there is almost no environmental 
problem.'' Do you still believe that?
    Ms. White. I would not put it that way.
    Senator Merkley. You did put it that way. Do you still 
agree with that statement you made previously?
    Ms. White. I would qualify it. That is not what I intended 
to say.
    Senator Merkley. What do you consider to be the top three 
environmental problems?
    Ms. White. Air quality, and I think a very current one, 
increasing risk from failing wastewater or drinking water 
treatment infrastructure, and I would say for the importance of 
an issue, climate change.
    Senator Merkley. You are telling us today that you believe 
that air quality is an issue even though you previously said 
you don't think particulates are a problem and that the ozone 
problem is solved?
    Ms. White. I don't know from what documents you are finding 
those statements but they may be out of context. I said or have 
intended to say, talking about the very significant improvement 
and the positive trends.
    Senator Merkley. You do believe that lead and arsenic in 
the water, mercury in the air, particulates in the area are 
significant problems that need to be improved?
    Ms. White. At certain exposures.
    Senator Merkley. But currently, there is pollution that 
needs to be reduced?
    Ms. White. Again, given that I have not been inside.
    Senator Merkley. No, no, you are an expert on air quality. 
Do you believe there is air around the country that has 
pollutants that need to be reduced?
    Ms. White. There are certain areas.
    Senator Merkley. Particulates, fine particulates, do you 
believe that?
    Ms. White. Different pollutants implicated in different 
places.
    Senator Merkley. Fine particulates, do you believe they 
need to be reduced?
    Ms. White. At certain exposures.
    Senator Merkley. Coral reefs around the world are dying. Do 
you consider that an environmental problem?
    Ms. White. If they were.
    Senator Merkley. You said if they were?
    Ms. White. If they were, I have no knowledge of those 
issues. I know it is an issue, but I have no specific 
knowledge.
    Senator Merkley. Of course, you are not a scuba diver, you 
haven't gone to the coral reefs yourself, but you are asking us 
to confirm you for an environmental position. When we talked in 
the office, I raised the issue of coral reefs, and you said, 
``I am not a scientist.'' You are not a doctor either, but you 
go to the doctor, right?
    Ms. White. Right.
    Senator Merkley. Scientists are telling us coral reefs are 
dying, and you say, if it is happening. Don't you believe it is 
happening based on the reports from around the world?
    Ms. White. I would need to read some statement of that 
science.
    Senator Merkley. Are you familiar with the dramatic drop in 
ice in the Arctic and the impacts on the environment there?
    Ms. White. Yes.
    Senator Merkley. In that case, you do believe what 
scientists are reporting?
    Ms. White. No.
    Senator Merkley. You do not believe what scientists are 
reporting?
    Ms. White. I need to study and learn and look at that. It 
is from multiple science.
    Senator Merkley. Do you believe the scientists when they 
talk about the melting permafrost?
    Ms. White. Yes, but I would like to finish my sentence. I 
am aware of the shrinking ice sheet in the Arctic, but the 
expanding ice sheet in the Antarctic.
    Senator Merkley. Are you familiar with the Red Zone?
    Ms. White. Red Zone?
    Senator Merkley. Red Zone of dying trees?
    Ms. White. Off coast, right.
    Senator Merkley. Yes, dying because pine beetles are doing 
so much better in warm winters. When you say those who are 
concerned about global warming are paganists, totalitarianists, 
and Marxists, do you believe Oregon's farmers who are concerned 
about three worst ever droughts with the impact of climate 
changes are Marxists or totalitarians or pagans?
    Ms. White. I believe those words, Senator, with all due 
respect, have been taken out of context.
    Senator Merkley. They are words directly from your 
writings. How about Oregon's timber workers who are very 
concerned about the pine beetles killing the forests? Are they 
pagans because they see the impact of climate change destroying 
the forests?
    Ms. White. To answer yes or no, no.
    Senator Merkley. No, you don't. Why did you say these 
things then? It is not just one quote; it is multiple quotes 
calling environmentalists Marxists and those concerned about 
climate change as pagans?
    Ms. White. I think I submitted about 100 pages of either 
commentaries or research studies I have done in that entire 
purpose. There may be some mistakes.
    Senator Merkley. Here is my summary. Do you believe the 
planet is getting warmer?
    Ms. White. Yes.
    Senator Merkley. Because it can be measured. Do you believe 
carbon dioxide levels have gone up dramatically? It can be 
measured. Scientists measure it every day.
    Ms. White. No, I would not say they have gone up 
drastically. I know they have risen from pre-industrial times.
    Senator Merkley. They went up from 295 ppm to over 408 ppm, 
and the rate of pollution has gone up from 1 ppm per year to 3 
ppm or nearly 2.5 to 3 ppm per year. You are unfamiliar with 
the details of that?
    Ms. White. No, I am familiar with those.
    Senator Merkley. I have a chart behind me.
    Senator Barrasso. We are going to have a second round, and 
your time has expired.
    Senator Merkley. Thank you, Mr. Chairman. We will come to 
those.
    Senator Barrasso. Thank you.
    We will head to the second round of questions.
    Mr. Wheeler, before your time on Capitol Hill, I know you 
spent time working at the EPA as a career official. This fact 
caught the attention of my friend, Senator Carper, who said in 
a recent interview about you, ``I think having worked in the 
agency, he actually cares about the environment, the air we 
breathe, the water we drink, and the planet on which we live.''
    Can you talk a bit about how your time as a career official 
with the agency would shape your leadership style as deputy 
administrator at the EPA?
    Mr. Wheeler. I would say my time at the agency, having 
worked with the career employees there, plus my legislative 
time here on how laws are drafted, and then my time over the 
last 8 years on how they are implemented, has really helped me 
understand a better, full picture.
    I was very pleased with the work I did at the Agency. I 
worked on the Toxics Release Inventory and the Right to Know 
law, I worked on expanding that. I worked on getting TSCA 
information out to the public. I won a few awards while I was 
at the agency.
    I understand the power of the data and information that the 
agency has and the importance of getting that out to the public 
for people to know about the chemicals released where they live 
and the impacts that could have on public health and the 
environment.
    I think the time I spent in the Right to Know Program at 
the agency was very formative in my development as an 
environmental attorney.
    Senator Barrasso. Ms. White, different Administrations 
obviously have different priorities for the CEQ. Could you talk 
a bit about what you and the Administration you hope to join 
see as the CEQ's role in formulating environmental policy?
    Ms. White. Given the two Acts passed not long ago, the 
highway bills, I always get the acronyms wrong, I recognize a 
real problem we have with the links of permit timeframes, the 
cost of environmental reviews, and impediments they present to 
urgently needed infrastructure.
    I think the infrastructure package, if you will, some of 
which has been created in new laws, some of which has been 
expressed in executive orders, most recently the mid-August 
executive order from President Trump about reducing permit 
timeframes with quite a bit of detail, this could well be a 
time, and I would welcome the challenge to make very 
significant changes in environmental review, mostly to shorten 
the process, reduce the cost and uncertainty, duplication and 
all those things.
    I think that is not a small task. Lots of people have tried 
to do similar things in different Administrations. It is really 
hard to change the way agencies operate to move the ball 
forward, but I think that would be very important and could be 
of historical importance.
    It takes 50 permits, 9 years, and $7 billion, and then the 
investors withdraw from the project. We are in trouble in this 
country if we cannot permit needed infrastructure in a timely 
manner.
    Senator Barrasso. Thank you.
    Mr. Wheeler, during your over 25-year career, you have had 
an opportunity to work on environmental issues impacting lots 
of different areas of the country. Senator Boozman asked you 
about rural communities, and you talked about all the time 
driving around in rural areas.
    Can you talk a bit about how you will work to ensure that 
the EPA treats rural States, like my home State of Wyoming, 
fairly and equitably when developing and enforcing 
environmental policies?
    Mr. Wheeler. Absolutely. First, I would say everyone I met 
in rural areas of our country cared deeply about the 
environment where they live. In fact, they are some of the best 
stewards of the environment we have.
    Again, working with Administrator Pruitt on his cooperative 
federalism, working with the States, working with the local 
governments, I think is vital to going forward and making sure 
that everyone understands the need to protect the environment 
and what are the requirements from the EPA so we can work 
together.
    Senator Barrasso. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Ms. White, I was about to show you a chart which I will 
show you now. That chart shows the information that has come 
from the fourth National Climate Assessment put forward by the 
Trump administration, by the combined work of the EPA, NOAA, 
the Department of Energy, and several other agencies within the 
Government.
    It shows their estimate of the best work of their 
scientists of the impact of human activity versus natural 
activity on climate change or climate disruption. Can you see 
that OK?
    Ms. White. Yes.
    Senator Merkley. The first red column is a human caused 
impact from the Trump administration's EPA and fellow agency 
report, solar flare activity which is often raised, and 
volcanic activity, which is often raised. Which of these bars, 
the red, orange, or the green, is the highest?
    Ms. White. Obviously, the red.
    Senator Merkley. The red, the human caused activity. Is it 
dramatically different from the impact of solar caused 
activity?
    Ms. White. Could you briefly summarize what methodology was 
used to measure that increment of human activity?
    Senator Merkley. Yes, I can, but as an expert on the 
atmosphere, I would think you actually have a better command of 
that. The scientists looked at the carbon dioxide and its 
impact on raising temperatures and how much was created by 
volcanic activity or how much temperature indirectly was caused 
by solar activity, solar flares, and so forth, and then human 
activity.
    The primary function, there are some other global warming 
gases, and I am sure you are familiar, but the primary activity 
is the burning of fossil fuels and the production of carbon 
dioxide. Is there a dramatic difference between the human 
caused impact and the solar impact?
    Ms. White. Yes.
    Senator Merkley. I know you said before you are not a 
scientist, but this is the Trump administration's report. Do 
you accept the results of this report?
    Ms. White. I view this report really as the product of the 
past Administration and not of the present. It was, I think, up 
for a certain draft of it before.
    Senator Merkley. When you told me that you would look to 
the scientists for insight and the scientists produced these 
numbers, you are now rejecting them?
    Ms. White. There are all different types. There are many 
differences, a credible difference of opinion among climate 
scientists.
    Senator Merkley. This is the combined work of the 
Administration released by the Trump administration that you 
are asking to work for, but you are rejecting their findings?
    Ms. White. I think we need more of a precise explanation of 
the role of the human contribution.
    Senator Merkley. Mr. Wheeler, how about you? Do you reject 
the findings of the Trump administration scientists?
    Mr. Wheeler. No, I do not reject it, Senator. I believe, 
though, the report issued on Friday was put out for notice and 
comment. I would not want to prejudge anything. I agree with 
you that the red bar is much higher than the other two.
    Senator Merkley. Does that generally reflect your 
understanding of the impact of human activity versus solar or 
volcanic activity?
    Mr. Wheeler. Looking at this chart, it appears that human 
causes is much greater. Again, I don't want to go too much into 
the report since it is open for notice and comment at this 
point.
    Senator Merkley. Does that generally reflect your 
viewpoint, or is this radically different than your viewpoint?
    Mr. Wheeler. I would have to look at the information.
    Senator Merkley. I know but I am asking about your 
viewpoint. Do you believe human activity is driving the 
temperature increases on the planet?
    Mr. Wheeler. I believe man has an impact on the climate, 
but what is not completely understood is what the impact is.
    Senator Merkley. You don't accept, if you will, the general 
finding of the Trump administration scientists that it is 
dramatically more the impact of human activity than solar or 
volcanic activity? You are not sure of that?
    Mr. Wheeler. I have not read the report yet. Since it is 
open for notice and comment at this point, I don't think I 
should comment.
    Senator Merkley. No, there are many other sources for this 
information.
    Mr. Wheeler, you have been working as a lobbyist for a 
company, for a private company?
    Mr. Wheeler. A number of different companies.
    Senator Merkley. Yes, sir, but significant activity on 
behalf of the coal industry. You were shown the secret 3-page 
plan on how to destroy the EPA when you were lobbying for them.
    When candidate Trump said he was going to drain the swamp, 
did he mean to take the lobbyists and put them in charge of 
policy? Is that what he meant by ``drain the swamp''?
    Mr. Wheeler. First of all, I believe there are a number of 
lobbyists that worked in the Obama administration.
    Senator Merkley. I am not asking about the Obama 
administration; I am asking about candidate Trump's argument 
that he is going to ``drain the swamp'' and get rid of the 
powerful special interests and the lobbyists running things. Is 
that what you think he meant by that? Or what did he mean by 
that?
    Mr. Wheeler. I am not sure what he meant by that.
    Senator Merkley. My time is up but I do think there is 
quite a contrast in that. I do think when the Trump 
administration's scientists put out this information, boy, it 
bears paying attention to it.
    Ms. White, you said you are going to look to what the 
scientists say. This is what they say, and yet you reject it. I 
don't see how that makes you possibly qualified to serve in 
this capacity.
    Thank you.
    Senator Barrasso. Thank you, Senator Merkley.
    I would point out for the record, a story dated November 2, 
2017, an op-ed in the Wall Street Journal under the headline, A 
Deceptive New Report on Climate. This is by Dr. Steven E. 
Koonin who had served as the Under Secretary of Energy for 
Science in the Obama administration.
    He goes on in his op-ed to report, ``The world's response 
to climate changing under natural and human influences is best 
founded upon a complete portrayal of the science. The U.S. 
Government's Climate Science Special Report does not provide 
that foundation.'' Instead, he goes on to say, ``It reinforces 
alarm with incomplete information and highlights the need for 
more rigorous review of climate assessments.''
    I would ask unanimous consent that this be entered in the 
record. Without objection, it is done so.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I would like to thank both our witnesses today.
    Ms. White, I will start with you. Let me start by 
apologizing in not getting here earlier. I was over on Commerce 
where we were having another hearing, so I did not get to hear 
your statement and the questions. If this has been asked 
before, I apologize.
    We have had, over the last several years, particularly 
during the last Administration, a real battle between State 
regulators and the EPA and the policies emanating from the 
White House with a lot of our State regulators suing in court, 
adding comments to potential court decisions in opposition to 
the direction the Administration was going, some successful, 
some not. Then somewhere the State regulators would be invited 
in to help craft a decision and then basically being ignored 
when they would weigh in.
    Where do you see the cooperation between the State and what 
your office of Environmental Quality would do and how you might 
be able to bridge some of those bridges that have been burned 
over the last several years?
    Ms. White. As I understand it, CEQ has been used as an 
entity that can convene local agencies, State agencies, and 
Federal agencies and try to coordinate and resolve conflict. I 
actually think that process, which CEQ has used, I don't know 
whether it has ever been done on a State-Federal authority 
issue, but I think there has been some meaningful use of the 
convening story of CEQ.
    On the other hand, we are still at the beginning of this 
Administration, challenging decisions from the last 
Administration which some construe as maybe assisting the 
agency in reforming the agenda.
    Senator Capito. Thank you.
    Mr. Wheeler, I was very pleased to see that the EPA 
announced their hearings on the Clean Power Plan. I think one 
of the first, if not the first, meeting is to be convened in 
Charleston, West Virginia, my hometown and obviously in the 
heart of coal country in the State of West Virginia and that 
region.
    For the last years, from this dais, I have asked that our 
voices be heard at the EPA. The last time they went around the 
country, the closest we could get them was Pittsburgh, but they 
could go to San Francisco, Boston, Chicago, and cities that 
might not be quite so friendly or have the same voice.
    I would like to ask you, in the position you would assume 
at EPA, to keep all voices at the table. I would not advocate 
that you only come to coal country to talk about coal. You have 
to go everywhere.
    I would say to Administrator Pruitt, thank you for that, 
for being willing to come and listen. It is going to be a 
rollicking hearing, I can tell you that. I would like to know 
your perspective on that because I know you have done some work 
in the coal area and how you perceive that.
    Mr. Wheeler. Thank you, Senator.
    As you know, my family is from West Virginia. I go there 
every year, so if you would like me to come to West Virginia, I 
will be there next June, the third weekend in June, I know for 
sure.
    I think it is important for EPA to get out and meet with 
the people, particularly those they are regulating. I am glad 
one of the first meetings will be in Charleston, West Virginia. 
I think it is a sign that Administrator Pruitt means what he 
says when he wants to work with the States and the communities. 
I look forward to working with him going forward.
    Thank you.
    Senator Capito. Thank you.
    Let me ask you this. I know you are familiar with the 
bureaucracies. I noticed in your statement, in terms of EPA, 
that you did take some time to appreciate the long term service 
of many people in EPA and many of the hard workers. I think we 
have a tendency to think all the bureaucrats are just running 
amok.
    How do you see that in terms of EPA, in terms of the power 
more bureaucratic people have over the political winds that 
change every 8 years, or how do you bridge that gap?
    Mr. Wheeler. I do think the career employees at the agency 
are very dedicated. I think you go to work at the EPA because 
you are concerned about the environment. I applaud them for 
their work and what they have done.
    My criticisms in the past have been directed at some of the 
political people at the agency and not the career people. I am 
looking forward to returning to the agency to work with them 
again.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Carper.
    Senator Carper. Mr. Wheeler, I spent a little time in the 
Boy Scouts, raised a couple of boys, as the Chairman said here, 
who became Eagles and learned a lot from it. When I was a Scout 
growing up in Virginia, we would go on camping trips. We took 
our own sons and their Scout troop on any number of those over 
the years.
    I have here the Scout laws. A Scout is trustworthy, loyal, 
helpful, friendly, courteous, kind, obedient, cheerful, 
thrifty, brave, clean, and reverent. I don't know you well 
enough to know if you measure up on all of those. I would like 
to think I do and my colleagues and I do. I hope we do, but it 
is a high standard to set.
    One of the things we always tried to teach our Scouts was 
that we had an obligation to this planet. It was given to us by 
God. We are its stewards, and we have a moral obligation to 
turn it over from one generation to the next in as good shape 
or maybe better shape. How do you feel about that?
    Mr. Wheeler. I completely agree with you, sir. I was saying 
them, while you were saying them, quietly to myself. I try to 
live up to those ideals of scouting every day of my life. I 
agree with you that we have a responsibility in the stewardship 
of the planet to leave it in better shape than we found it for 
our children, grandchildren, and nephews.
    Senator Carper. It is possible to actually make the 
actually make the air and water cleaner, preserve our natural 
resources, and do so in a way that does not diminish jobs or 
employment but actually enhances it. You know how much I loved 
George Voinovich and his bride. We were Governors together and 
Senators here for many years.
    Now the Republican banner on the Diesel Emissions Reduction 
Act is carried by Senator Inhofe. I will never forget the day 
George Voinovich came to me and said, we have all these diesel 
emissions. The great thing about diesel engines is they last a 
long time; the bad thing is they last a long time, and the 
older ones are terribly polluting.
    We can actually use American technology to clean up the 
emissions and do so in a cost effective way and get a lot of 
partners involved and not only create jobs but tens of 
thousands of jobs. We can also use American technology and 
export the technology across the world. I hold that out as an 
example of the way we ought to work and work together for the 
common good.
    I want to talk with Mr. Wheeler about EPA employees 
breaking the law. Ms. White served on the Texas Commission on 
Environmental Quality. The commission staff was told to under-
report the levels of radiation in drinking water, violating the 
EPA's rules. She later defended these actions telling the 
reporter, ``We did not believe the science of health effects 
justified EPA setting the standard where they did.''
    I would just ask, Mr. Wheeler, do you agree it is 
appropriate or inappropriate to direct staff to violate Federal 
law, regulations, or reporting requirements?
    Mr. Wheeler. I am not sure where the quote came from and 
what Ms. White would say about that quote today. I do not think 
it is appropriate to direct staff to ignore laws, no.
    Senator Carper. In our personal meeting, you noted that you 
were once an EPA career official.
    Mr. Wheeler. Yes.
    Senator Carper. During your time there, you found the EPA 
career staff are dedicated employees who want to make a 
difference with their lives on behalf of other people on the 
planet on which we live. In materials you submitted for the 
record, you also stated, ``If I am confirmed, I hope to earn 
their respect.''
    My question is, do you agree that censoring, disregarding, 
or excluding career staff views would actually earn their 
respect? Would you describe some steps you plan to take, if you 
are confirmed, to improve the manner in which EPA career staff 
is respected in a way that shows them respect?
    Mr. Wheeler. I will turn to the career staff and ask their 
advice and listen to them. I think I have to best answer that 
question by saying they will see it in my daily actions, how I 
interact with them, and how I go forward with them.
    Senator Carper. I have one last one, if I can, Ms. White.
    In congressional testimony and articles, you have referred 
to EPA employees as ``Federal mandarins brandishing their 
scientific credentials''--as ``Federal mandarins brandishing 
their scientific credentials.'' Those words suggest you may not 
agree with Mr. Wheeler that EPA career staff are dedicated 
employees who want to make a difference in the environment.
    I always try to treat other people the way I want to be 
treated. What would cause you to describe people like Andy 
Wheeler, when he was working at the EPA, as a Federal mandarin 
brandishing scientific credentials? What would make you talk 
that way about him?
    Ms. White. A rather exaggerated way to reflect the anger 
that I see in people and the amount of power that Federal 
employees have garnered as opposed to all of you, our Congress, 
that is where that came from.
    Senator Carper. I am sorry, my time has expired. Thank you.
    Mr. Chairman, I have one last unanimous consent request to 
submit additional materials for the record pertaining to Ms. 
White's views on public health and the environment that would 
include a letter from 56 members of the House, parties to the 
nomination and a letter signed by many environmental 
organizations who also oppose her nomination. I ask unanimous 
consent.
    Senator Barrasso. Thank you.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    
    Senator Barrasso. Also, Carol Baker with the Texas Water 
Foundation, President and CEO, stated this: ``Ms. White is a 
committed public servant, has been a wonderful advocate on 
behalf of water issues for decades in her role as Chair of the 
Texas Commission on Environmental Quality, was a champion on 
natural resource issues and admired for her commitment and 
tenacity. She is very collaborative and always interested in 
listening to all the details on the issues and a great team 
leader. I highly recommend and support this very qualified 
candidate, Kathleen Hartnett White.''
    I ask unanimous consent that we introduce that.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Let us turn to Senator Inhofe.
    It seemed you were trying to answer something. If it is all 
right with Senator Inhofe, I would like to give you a chance to 
respond.
    Ms. White. Yes, I was. I understood his question was about 
an issue of naturally occurring radionuclides in soil and as 
characterized, that somehow, I or another CEQ employee was 
telling field staff don't show the extent of the problem; just 
mute it back a little bit. Evidently EPA was claiming that.
    This is one of these technical issues, about technical 
issues and interpretative guidance with EPA. I would never, 
ever tell staff to under-report health hazards. That is the 
only statement I wanted to make. Health hazards like this need 
to be addressed ASAP.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me make one comment. Since all they want to talk about 
on the other side is global warming, it is kind of interesting. 
Someone pretty smart on the other side, back when they were 
talking, and their whole concept was the world is coming to an 
end, and it is due to anthropogenic gases. Do you remember 
that, Mr. Wheeler?
    Mr. Wheeler. Yes, sir.
    Senator Inhofe. We heard it over and over again, but it did 
not sell. The people did not buy it, so they changed it and 
started using climate change. Climates always change. In fact, 
we voted unanimously that everyone agrees that climate has 
always and always will change. In all the historical, 
scientific, and scriptural evidence, that is a fact.
    That gives the opportunity to say anyone who does not 
believe the world is coming to an end because of global warming 
does not believe that climate changes. Very clever. I don't 
have any reason for saying that but somebody has to say it.
    Besides that, when they talk about all the scientific 
evidence, Richard Lindzen is a good example. Richard Lindzen 
with MIT is recognized as one of the top scientists in the 
country on this and other subjects.
    I don't have the whole quote written down, but I think I 
have it memorized. He said, ``Regulating carbon is a 
bureaucrat's dream. If you regulate carbon, you regulate 
life.'' Have you ever heard that quote, Mr. Wheeler?
    Mr. Wheeler. Yes, sir, I have heard you say that many 
times.
    Senator Inhofe. I would also like to have you address one 
other thing. There is this idea out there that somehow in 
taking care of your own land, for example, that the Government 
needs to do it for you.
    You might recall that during the past Administration--I 
don't remember his name but I had asked him to come out and 
talk to our farmers in Oklahoma to determine whether or not he 
really thinks we need to have them looking after the 
environment on their own property. They came back with a 
report. This came from several places in Oklahoma that they had 
never seen such enthusiastic support by the owners of the land 
that was far greater than anything they had ever heard from the 
bureaucracy. Do you remember that?
    Mr. Wheeler. I do, sir, yes.
    Senator Inhofe. I think that is really worth talking about.
    I know we are kind of coming to a close, but the other side 
of the dais has been focusing on your writings, Ms. White, as a 
private citizen and have been furthering the myth that you have 
helped polluters get away from polluting while at the Texas 
Commission CEQ.
    I want to show them that while you were at the Texas 
Commission CEQ, the Texas air quality dramatically improved. 
What role did you play in that result?
    Ms. White. As the chairman, it all circled around the State 
implementation plan that states, those who have non-attainment 
areas must submit to EPA. Like a lot of Government documents, 
it is not 10 pages; it is six volumes and thousands of pages.
    I was the chairman, so that was the most important issue in 
the entire agency. I think you could generally say I was 
directing the team that was developing the full State 
implementation plan which is, like I said, a huge document with 
reams of things people might call science or technical 
analysis, control measures and all kinds of things.
    It was through really implementing that plan that the 
dramatic reduction, not just in ozone which is not a directly 
emitted pollutant, but also other pollutants that as a result 
of the measures addressing ozone, we had beneficial impact on 
other pollutants.
    Senator Inhofe. The bottom line is, in looking at this, you 
have been very successful in accomplishing those things for the 
Texas CEQ.
    Ms. White. Yes.
    Senator Inhofe. Is there any reason you believe you would 
not be equally successful in performing some of those results?
    Ms. White. No. That is why I would be so delighted were I 
nominated to take on this job at CEQ within a different 
framework than a regulatory agency but lots of the same issues.
    Senator Inhofe. Thank you, Ms. White.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Mr. Wheeler, there has been a recent 
request by Secretary Perry to the Federal Energy Regulatory 
Commission to provide certain regulatory favors, to provide 
regulatory priority to, among other things, coal plants.
    To your knowledge, was either Mr. Murray or Murray Energy 
involved in making a recommendation of any kind to Secretary 
Perry on that subject? Were you personally involved in any way 
in any activities that led up to Secretary Perry's request to 
the Federal Energy Regulatory Commission?
    Mr. Wheeler. Certainly, Murray Energy has been supportive 
of that effort. I did attend a meeting with Murray Energy at 
the Department of Energy where this was discussed months ago, 
but I de-registered in August. I have not been involved in 
anything over the last few months on this issue. This issue has 
been front and center.
    Senator Whitehouse. Was your participation in the 
preparation for the Perry request, if we call it that, is that 
a fair enough description? Do you know what I am talking about 
if I say the Perry request?
    Mr. Wheeler. I think I know what you mean. I did not work 
on putting that together. As I said, I was in a meeting at the 
Department of Energy.
    Senator Whitehouse. Was that the limit of your 
participation in that, to attend one meeting at the Department 
of Energy?
    Mr. Wheeler. I also believe I attended one Hill meeting on 
that as well.
    Senator Whitehouse. One meeting on the Hill, one meeting at 
the Department of Energy, and nothing further, no memos that 
you authored, no paper trail, nothing else?
    Mr. Wheeler. No, sir.
    Senator Whitehouse. Ms. Hartnett White, I went down to 
Texas. I go to a lot of States to try to figure out what is 
going on there in terms of climate change. I had a scientific 
panel with scientists from the University of Texas at Austin; 
from Texas Tech, and Katherine Hayhoe, who I am still somewhat 
in touch with, who is by the way, not pagan, she is 
evangelical; Texas A&M, the Aggies, were present; and Rice 
University.
    They said that Texas was in harm's way from climate change 
on a whole variety of fronts, including sea level rise along 
the coastline and so forth. They were pretty much in unanimous 
agreement with each other about what was going on.
    They also said they were unaware of any support in their 
universities for some counter-science in which this isn't 
really happening.
    Have you been in touch with any of those universities about 
climate change and about what it means for Texas? Is there any 
record of your contact with those universities?
    Ms. White. I don't know whether there would be any records, 
but over the years, attending a conference or a panel or that 
sort of thing.
    Senator Whitehouse. Do you know how much of the excess heat 
that has been captured by greenhouse gas emissions has been 
absorbed by the oceans, roughly, say to the nearest 10 percent?
    Ms. White. I do not have numbers like that.
    Senator Whitehouse. Even to the nearest 10 percent? Do you 
know if it is more than 50 percent or less than 50 percent?
    Ms. White. I am sorry, but could you ask the question one 
more time?
    Senator Whitehouse. Of the additional heat that has been 
captured in the atmosphere as a result of greenhouse gas 
emissions, do you know how much of that excess has been 
captured in the ocean? Is it more or less than 50 percent? Do 
you even know that?
    Ms. White. No.
    Senator Whitehouse. No. OK.
    Ms. White. But I believe there are differences of opinions 
on that, but there is not one right answer.
    Senator Whitehouse. Really? Do you think there is actual 
serious difference of opinion whether it is below 50 percent?
    Ms. White. Unless I am mistaken, yes.
    Senator Whitehouse. You think there is serious difference 
of opinions as to how much of that has been captured by the 
ocean? You think there is serious scientific opinion that it is 
below 50 percent?
    Ms. White. Yes, unless I am mistaken. Yes.
    Senator Whitehouse. OK, wow. Do you think if the ocean 
warms, it expands? Does the law of thermal expansion apply to 
sea water?
    Ms. White. Again, I do not have any kind of expertise or 
even much layman study of the ocean dynamics and climate change 
issues.
    Senator Whitehouse. Just enough to know that you think 
there is not science that establishes clearly how much of the 
heat has been taken up by the oceans? You knew that, right? You 
said you knew that.
    My time has expired. I am sorry. I hear the gavel knocking.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Sullivan.
    Senator Carper. Could I ask for one unanimous consent 
before Senator Sullivan?
    Senator Barrasso. Yes.
    Senator Carper. I would submit for the record statements 
Ms. White made in February of this year on a panel hosted by 
the CO2 Coalition, an organization that promotes misinformation 
about climate change.
    The Coalition claims ``Climate policies deprive mankind of 
the benefits of carbon dioxide.'' Ms. White stated the CO2 
Coalition is ``a very, very meaningful source.''
    Thanks very much.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Barrasso. Brandy Marty Marquez, a commissioner of 
the Public Utility Commission of Texas, has written in support 
of Ms. White's nomination. Ms. Marquez has said ``Ms. White 
brings a wealth of environmental regulatory experience and her 
record reflects her commitment to genuine environmental 
protection.''
    I ask unanimous consent as well that this be entered in the 
record. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Barrasso. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the witnesses being here and your willingness 
to serve.
    Mr. Wheeler, I appreciated your highlighting some of 
Administrator Pruitt's testimony during his confirmation 
hearing about we are a nation of laws, the rule of law, and 
cooperative federalism. I think those are all very important 
issues. I want to kind of drill down on those a bit today.
    I think it is also important to recognize. Sometimes you do 
not always get it from this Committee, but we all are very 
focused on clean water and clean air. My State of Alaska and my 
hometown of Anchorage has some of the cleanest water and gets 
awards. My State has the most pristine, beautiful, and 
incredible environment probably in the world. We care about it 
deeply.
    We also care about the rule of law. To be perfectly blunt, 
I think the last Administrator in the previous Administration 
was not that concerned about the rule of law. Let me give you a 
quote from the previous Administration.
    A senior official once stated of a major EPA rule on the 
eve of a big Supreme Court case that when asked whether you 
think you are going to win or lose in the Supreme Court on this 
rule they promulgated, this individual said, it didn't matter 
if it was unlawful because the rule was finalized 3 years ago, 
and ``most of the covered parties are already in compliance and 
investments have been made.''
    Does that sound like the attitude of somebody or an agency 
that cares about the rule of law?
    Mr. Wheeler. No, it does not, sir.
    Senator Sullivan. That was Gina McCarthy. That was one of 
numerous, numerous occasions where she and her team ignored the 
rule of law. In one of her hearings, I called her running a 
lawless agency because they did this all the time.
    The Clean Power Plan gets a lot of play in the press. Do 
you have any idea why the U.S. Supreme Court put a stay on the 
Clean Power Plan, the first time in U.S. Supreme Court history 
that they had done that to a rule from a Federal agency that 
had not been looked at by a lower court? Do you have any sense 
of why the Supreme Court did that?
    Mr. Wheeler. It is my understanding the Supreme Court, as 
you said it was the first time for an environmental statute, 
but the only time they would issue a stay like that would be if 
they thought the proponents would prevail on the arguments.
    Senator Sullivan. I think the Supreme Court saw it as a 
quote from the EPA Administrator who said, look, we don't care. 
Investments have been made. These poor idiot Americans who 
complied with it, too bad. I think the Supreme Court was 
saying, that is not the rule of law.
    I need from you a commitment that you won't do that, 
whether you like a policy or not. If the Congress of the United 
States does not give you, as the Federal agency, the authority 
to undertake some kind of action, will you commit to this 
Committee that you won't undertake that kind of action?
    Mr. Wheeler. Absolutely, sir.
    Senator Sullivan. Do you need statutory authority to 
undertake rules and regulations that derive from this body?
    Mr. Wheeler. Absolutely. From my time working at EPA and my 
time working here, I understand where the laws are made and 
whose job it is to implement them. It is not the duty of the 
EPA to write the laws.
    Senator Sullivan. OK. We would hope you and Administrator 
Pruitt would never make a statement such as that by Gina 
McCarthy which showed complete disrespect for the rule of law 
and really for the Congress, in my view. Can I get your 
commitment on that?
    Mr. Wheeler. Absolutely, sir, yes.
    Senator Sullivan. Let me ask about another issue. You and I 
have talked about this. It relates to an issue back in my State 
that we worked on in a bipartisan way on this Committee in the 
last Congress. Chairman Inhofe, Senator Boxer, I and others 
worked on a challenge we have with regard to water and sewer 
infrastructure.
    There was a lot of talk about aging infrastructure during 
the Flint, Michigan, crisis. I was trying to raise the fact 
that there are communities in America which have no 
infrastructure, not just aging infrastructure.
    In my State, Alaska has over 30 communities where people do 
not have water and sewer, where they do not have flushing 
toilets. These are American citizens. We worked in a bipartisan 
way to address that.
    I was very disappointed to see the Trump administration did 
not fund that because no American citizen should live in a 
community where you do not have a flushing toilet. We have what 
is called honey buckets where you have to take raw sewage out 
to a lagoon. We have rates of diseases in some of these 
communities that are higher, like in third world countries.
    This is a program that passed the Congress on a bipartisan 
basis as part of the WIIN Act. Can get your commitment, if we 
get the appropriate funding, that the EPA, at the highest 
levels, will be committed 110 percent to addressing what is 
really a travesty? It is not just in Alaska; there are a few 
other States that have this problem, but this problem mostly 
resides in my State. We talked about it when you and I met. Can 
I get your commitment on that as well?
    Mr. Wheeler. Yes, sir. I will even go as far as to say 120 
percent.
    Senator Sullivan. Great. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Duckworth.
    Senator Duckworth. Thank you, Chairman Barrasso.
    Ms. Hartnett White, thank you for coming to my office for 
our meeting. I appreciate the time.
    During our meeting, you stated you do not have ties to the 
oil industry. It has been a long time for the renewable fuel 
standards and other environmental programs which I, and many of 
my constituents, support.
    In fact, when I did a bit more research, I found that you 
reportedly actually own several oil leases, one of which is 
leased to CVR Refining. CVR Refining is owned by Carl Icahn who 
recently resigned from his role as advisor to President Trump 
amid very well publicized concerns that he used his position in 
the Administration to influence a proposal to change the point 
of obligation under the RFS. This change would benefit Mr. 
Icahn's own financial interests. I have called on the FBI to 
investigate this very clear violation of conflict of interest 
laws.
    Let me ask, have you ever spoken to Carl Icahn regarding 
the RFS?
    Ms. White. No, I have not.
    Senator Duckworth. Do you intend to sell any of your 
current leases, specifically the one leased to Carl Icahn's CVR 
Refining?
    Ms. White. I already assigned those mineral interests by 
gift to my nephew. I do not own any mineral interests. My 
great-grandfather, in several counties in Texas, had some 
modest royalty interests.
    Senator Duckworth. But you gained financially from leasing 
these interests to Mr. Icahn? You made money off it, right? You 
got a return by leasing the oil leases to CVR Refining?
    Ms. White. Like I said, these are de minimis royalty 
payments for royalties in some agricultural counties in Kansas 
that I do not own anymore. My nephew does.
    Senator Duckworth. When did that happen?
    Ms. White. I don't know; about 6 months ago or so.
    Senator Duckworth. When it became clear that you wanted 
this job?
    Ms. White. Yes.
    Senator Duckworth. You made money, but you told me you did 
not have any history.
    Ms. White. I don't own them.
    Senator Duckworth. Fairly recently.
    Ms. White. They are like oil leases where some months you 
get $30.
    Senator Duckworth. Thirty dollars is a lot of money to some 
families.
    Ms. White. I am sure it is.
    Senator Duckworth. During our meeting, in countless 
articles and talks you have given over the years, you 
repeatedly claim that ethanol reduces grain supply and 
increases the cost of food.
    As someone who relied on food stamps as a child and who 
represents thousands of farmers in my home State, I am deeply 
invested in ensuring access, affordability, and quality food is 
available to everyone in the country and around the world.
    Yes or no, are you aware that today ethanol production has 
increased to at least 15 billion gallons?
    Ms. White. I have.
    Senator Duckworth. And that the price of corn is lower than 
it was when the RFS was adopted and that food prices are 
actually in the longest decline since the 2009 recession?
    Ms. White. I very recently have had access, thanks to 
Senator Fischer; because of that, have had lots of information 
on that. I can say God bless productive U.S. agriculture; there 
is a lot of corn supply.
    Senator Duckworth. Since RFS has been installed, do you 
agree, yes or no, that even since then, food prices are not 
higher and that what you have said, in fact, has turned out to 
not be true, that food prices would be higher because of 
implementation of the RFS?
    Ms. White. If I understand your question, yes, you are 
right.
    Senator Duckworth. Mr. Chairman, I would like to ask 
unanimous consent to submit for the record, materials relating 
to Ms. White's views that the Renewal Fuel Standard is 
unethical and should be repealed.
    Senator Barrasso. Without objection.
    [The referenced information is presented earlier in this 
hearing document.]
    Senator Duckworth. Thank you.
    I would also like to submit for the record a World Bank 
report that attributes changes in the price of food to the 
price of oil, not the RFS.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Duckworth. Thank you, Mr. Chairman.
    In 2014, Ms. White, you wrote, ``Using a vitally needed 
global food grain such as corn for the transportation fuel 
known as ethanol literally takes food from the mouths of hungry 
millions.'' You reiterated this claim in your meeting with me.
    Can you give me an example of a case where food was 
literally taken from the mouths of millions and diverted to 
ethanol production?
    Ms. White. If you mean it literally.
    Senator Duckworth. You said literally. That was your choice 
of words.
    Ms. White. Then I was just wrong. I was searching for the 
word figuratively.
    Senator Duckworth. We agree that you were wrong on RFS. You 
actually wrote this, so I would assume you proofread your 
documents before they were published.
    Beyond bashing the RFS inaccurately, can you describe any 
work you have done individually to advocate for ending hunger 
because you seem to be very concerned about hunger and the RFS' 
potential effect on world hunger? What have you done to 
advocate for ending hunger?
    Ms. White. I have contributed donations. A lot of my work, 
I find, is really about human welfare.
    Senator Duckworth. Can you give me a concrete example of 
how you have worked to end hunger?
    Ms. White. I don't have a concrete example.
    Senator Duckworth. So this was a nonsense thing to say 
essentially? Over the years, you have made many outrageous 
statements that you are clearly trying to walk away from today. 
One thing is clear, you would not be the impartial counselor we 
need in this Administration and we would expect from our civil 
servants.
    I also would like to take my remaining time to clarify.
    Senator Barrasso. You have no remaining time.
    Senator Duckworth. I am so sorry. May I ask one final 
question?
    Senator Barrasso. Please go ahead.
    Senator Duckworth. Thank you, Mr. Chairman. You are very 
indulgent.
    Can you clarify your answer to Senator Fischer? It sounded 
like you would not commit to following the law by ensuring the 
RFS goes to 2022 and that there are biofuel volumes. Of course, 
there are biofuel volume requirements beyond that date. Is that 
correct?
    Ms. White. I don't think that is quite correct.
    Senator Duckworth. So you are saying that you are committed 
to following the law to ensure the RFS goes through 2022? What 
I thought you said was that if the President wanted to renege 
on those, he could.
    Ms. White. No, I didn't.
    Senator Duckworth. Will you commit to opposing any attempts 
of the Administration to not adhere to the RFS through 2022?
    Ms. White. As I said, I would uphold the spirit and the 
letter of the law and that CEQ has no direct regulatory 
authority or even opinion that I think would carry any kind of 
legal weight.
    Senator Duckworth. Again, it is very simple. Yes or no, do 
you commit to ensuring that the RFS goes through 2022 by 
resisting, even by something as simple as publicly stating that 
you would oppose the Trump administration should they choose to 
try to go against the letter or the spirit of the law?
    Ms. White. I will repeat again that all law, not just the 
law that supports the Renewable Fuel Standard. I would uphold 
all law, the letter and the spirit.
    Senator Duckworth. I am going to hold you to that. Thank 
you.
    Thank you, Mr. Chairman. You have been very generous.
    Senator Barrasso. Senator Carper, closing thoughts?
    Senator Carper. Mr. Chairman, I have one last unanimous 
request.
    Before I do that, Mr. Wheeler, I don't know if you were 
with me and maybe George Voinovich in a meeting we held in my 
office, 513 Hart, maybe 10 or 12 years ago. We met with a 
number of utility CEOs from all over the country.
    They had come to meet with us to talk about emissions from 
power plants. Our focus was sulfur dioxide emissions, nitrous 
oxide, mercury, and CO<INF>2</INF>. We talked about an hour.
    A fellow from a utility I think from the southern part of 
the country, sort of a curmudgeon of an old guy, at the end of 
the meeting, he said, Senator, here is what you need to do. You 
need to tell us what the rules are going to be, give us a 
reasonable amount of time, give us some flexibility, and get 
out of the way. That is what he said.
    I thought it was pretty good advice, and that is what we 
tried to follow when President Bush proposed Clear Skies. Lamar 
Alexander and I proposed a counter-response, Really Clear 
Skies. We got some pretty good advice that day.
    There have been some comments here today about the Clean 
Power Plan. My recollection is the last Administration took 
comments for not just a couple weeks or a couple of months but 
for the better part of half a year, more than half a year.
    They met with over 400 stakeholders from sea to shining 
sea, received and tried to respond, and I think they said they 
did respond to over 1 million comments. Eighty-seven percent of 
the comments they had on the proposal was actually supportive. 
They reviewed more than 1,200 scientific reports.
    When I hear that, I think of that meeting we had with those 
utility CEOs where they said, tell us what the rules are going 
to be, give us a reasonable amount of time, some flexibility, 
and get out of the way.
    We will see how it shakes out in the end. I did not want to 
let it go by without saying, I believe the folks who are 
actually doing the outreach try to do so in a thoughtful way 
and to try to respond to comments they heard.
    I want to thank you all for being here. I don't know if it 
has been a pleasure for you, but it has been an informative 
hearing. We are grateful you are here.
    I want to say what is this young man's name over your left 
shoulder? Luke, the force is with you. I want to say how old 
are you, Luke?
    Mr. Luke Wheeler. Ten.
    Senator Carper. I would never have brought my sons in here 
when they were 10. I am impressed with the way you have handled 
yourself today. When Mr. Wheeler was speaking, a couple of 
times I was watching you. I could barely see your lips moving 
when he spoke, from the mouth of babes.
    I have a unanimous consent request to submit materials for 
the record about the drinking water radiation matters and Ms. 
White's involvement in those, if I could. Thank you.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   

    
    Senator Barrasso. I would also like to submit for the 
record a number of letters supporting both Ms. White and Mr. 
Wheeler, including a letter of support for Mr. Wheeler from the 
United Mine Workers of America. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Members may submit other questions and 
follow up written questions for the record. They can do that by 
Monday, November 13, at noon. The nominees will please respond 
to those questions by Monday, November 20, at noon.
    I want to thank the nominees and congratulate you both on 
your nomination.
    With that, this hearing is adjourned.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
   
    
                                 <all>
</pre></body></html>
